<html>
<title> - THE PLIGHT OF IRAQI REFUGEES</title>
<body><pre>[Senate Hearing 110-3]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 110-3
 
                      THE PLIGHT OF IRAQI REFUGEES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 16, 2007

                               __________

                           Serial No. J-110-2

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
33-563                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     5
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   139
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     3
    prepared statement...........................................   176
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   180
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     2

                               WITNESSES

``Al-Obiedy, Sami'' (pseudonym), former translator for the U.S. 
  Armed Forces, Pennsylvania.....................................    19
Bacon, Ken, President, Refugees International, Washington, D.C...    32
Gabaudan, Michel, Regional Representative for the U.S. and 
  Caribbean, Office of the U.N. High Commissioner for Refugees, 
  Geneva, Switzerland............................................    41
Iscol, Zachary J., Capt., Foreign Military Training Unit, Marine 
  Forces Special Operations Command, Camp Lejeune, North Carolina    28
``John'' (pseudonym), former truck driver (subcontractor) for the 
  U.S. Armed Forces, California..................................    21
Ramaci-Vincent, Lisa, Executive Director, Steven Vincent 
  Foundation, New York, New York.................................    31
Sauerbrey, Ellen, Assistant Secretary of State for Population, 
  Refugees and Migration, Department of State, Washington, D.C...     6

                         QUESTIONS AND ANSWERS

Responses of Ken Bacon to questions submitted by Senator Kennedy.    49
Responses of Michel Gabaudan to questions submitted by Senator 
  Kennedy........................................................    52
Responses of Ellen Sauerbrey to questions submitted by Senators 
  Leahy, Kennedy, Feingold, and Cornyn...........................    55

                       SUBMISSIONS FOR THE RECORD

Ahmed, F., M.D., letter..........................................    97
``Al-Obiedy, Sami'' (pseudonym), former translator for the U.S. 
  Armed Forces, Pennsylvania, statement..........................   102
American Jewish community organizations, joint letter............   112
Bacon, Ken, President, Refugees International, Washington, D.C., 
  statement......................................................   115
Brookings Institution, January 4, 2007, article..................   119
Chaldean Federation of America, Joseph T. Kassab, Executive 
  Director, Farmington, Michigan, statement......................   121
Constitutional scholars, joint letter............................   130
Dellinger, Walter, former Assistant Attorney General, Chapel 
  Hill, North Carolina, letter...................................   137
Gabaudan, Michel, Regional Representative for the U.S. and 
  Caribbean, Office of the U.N. High Commissioner for Refugees, 
  Geneva, Switzerland, statement.................................   140
Human rights and religious rights organizations, joint letter....   151
Human Rights Watch, executive summary, November 2006.............   153
``John'' (pseudonym), former truck driver (subcontractor) for the 
  U.S. Armed Forces, California, letter..........................   171
Keys, Arthur B., Jr., President and CEO, International Relief and 
  Development, statement.........................................   178
Los Angeles Times, Kirk W. Johnson, December 15, 2006, article...   183
Moshili, Farqad, former employee, Coalition Provisional 
  Authority, statement...........................................   186
Multi-National Force-Iraq:
    October 11, 2006, article....................................   190
    December 25, 2006, article...................................   192
PEN American Center, Ron Chernow, President, and Larry Siems, 
  Director, Freedom to Write and International Programs, New 
  York, New York, statement......................................   194
Ramaci-Vincent, Lisa, Executive Director, Steven Vincent 
  Foundation, New York, New York, statement......................   199
Refugees International, Washington, D.C., January 16, 2007, 
  bulletin.......................................................   207
Sauerbrey, Ellen, Assistant Secretary of State for Population, 
  Refugees and Migration, Department of State, Washington, D.C...   209
U.S. Commission on International Religious Freedom, Felice D. 
  Gaer, Chair, statement and attachments.........................   213


                      THE PLIGHT OF IRAQI REFUGEES

                              ----------                              


                       TUESDAY, JANUARY 16, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 2:05 p.m., in 
room 226, Dirksen Senate Office Building, Hon. Patrick J. Leahy 
(chairman of the committee) presiding.
    Also present: Senators Kennedy, Cardin, Specter, and 
Cornyn.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good afternoon. Today our committee will 
focus its attention on the current refugee crisis caused by the 
deteriorating situation in Iraq. Our hearing comes at a time 
when the momentum for bipartisan reform to address this crisis 
has never been stronger. It continues to grow, and I think that 
is good news in this country.
    I thank our witnesses for being here, two of whom are going 
to be appearing at considerable personal risk. I appreciate the 
cooperation of the members and the press in helping us keep 
their identity hidden.
    I am going to turn the hearing over, in just a moment, to 
Senator Kennedy, who will chair the Immigration Subcommittee 
when the committee organizes. But I would like to say just a 
couple of words.
    Among the estimated 1.8 million Iraqis who have fled their 
country, there are hundreds of thousands of destitute refugees 
who escaped to neighboring countries with little more than they 
could carry. Many have been denied refugee status. They have 
been forced back into Iraq.
    I am particularly concerned that we have not made 
provisions or created the legal authority necessary in this 
country to secure those Iraqis who have aided American efforts 
there.
    A lot of these are people whom we called upon to help us, 
and now we are not there to help them. We should not repeat the 
tragic and immoral mistake of the Vietnam era and leave friends 
without a refuge and, of course, subject to very violent, and 
often deadly, reprisals.
    I am also concerned about Iraq's scholars. Many have been 
killed or are presently targeted for assassination. Others have 
gone into hiding. Iraq's best hope is its younger generation, 
and if they are unable to continue their academic studies their 
ability to contribute to Iraq's future will be severely 
damaged.
    Secretary Sauerbrey, I would like to meet with you soon to 
discuss ways that we could assist those who have aided our 
forces in Iraq. I want to discuss with you the special plight 
of Iraq's scholars, along with the ways we could help them 
resettle outside Iraq where they can safely continue their 
academic research and instruction. We do not want to have such 
a brain drain that we have nobody there to help if peace ever 
comes to this troubled area.
    I would hope that today's hearing also highlights all that 
still needs to be done to help other asylum seekers and 
refugees, and I believe congressional action is overdue to 
prevent further injustice resulting from the material support 
bar to refugee admissions.
    It is an issue that is fundamental to America's role as the 
leading protector of fundamental human rights. These guiding 
principles and our national security are not really mutually 
exclusive. Hundreds of people already in the United States are 
being denied asylum, and now they face being returned for 
prosecution, persecution, and possibly death.
    There are many more things I can say. I will include my 
full statement in the record.
    I would note that the editorial boards of our Nation's 
leading newspapers have spoken out strongly in recognizing the 
injustice that current law is causing any of the several 
hundred previously admitted refugees and asylees who are being 
denied reunification with their loved ones.
    It is perverse and it should be embarrassing to us as the 
stewards of a country that has been known throughout our 
history as a safe haven for refugees. So, I am glad many are 
speaking out.
    I might add, there are conservative religious activists who 
have recently joined our efforts and I applaud them for doing 
that and welcome than to the issue. I ask that a copy of the 
January 11 letter to Senator Specter and myself from a broad 
range of organizations--Human Rights Watch, Human Rights First, 
Hudson Institute, Southern Baptist Convention--be included in 
the record because change in the material support bar to make 
it consistent with our Nation's commitment to human rights is 
something that should unite us across ideological and party 
lines.
    It is time to bring our laws back in line with our values 
and remind everybody that we are children of immigrants. In my 
case, my mother is first generation. My wife is first 
generation. This is the beckoning country, and we should make 
it so.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Senator Specter?

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I noted Senator 
Kennedy's excellent op-ed in the Washington Post recently, and 
am glad to see this hearing, Mr. Chairman, focus on this very 
pressing issue.
    Some 1,600,000 have already fled from Iraq, and another 
1,800,000 are seeking refuge somewhere else. The reference that 
Chairman Leahy made, that we are all children of immigrants, is 
certainly true. Both of my parents were immigrants. My mother 
came at the age of six with her family from Russia.
    In 1911, when my father was 18, the Czar wanted to send him 
to Siberia and he did not want to go to Siberia. He heard it 
was cold there. He wanted to go to Kansas instead. It was a 
close call, and he got to Kansas.
    But our laws are explicit in granting refugee status to 
people who are persecuted or have a well-founded fear of being 
persecuted for reasons of race, religion, nationality, 
membership of a particular social group or political opinion. 
In my parents' days, there was persecution; the Cossacks, my 
father told me, would ride down the streets of his little town 
looking for Jews.
    The problem that is faced now in Iraq is one of gigantic 
proportions. There are hundred of thousands who have gone to 
neighboring countries. I recently had an opportunity to visit 
Syria.
    President Bashir Assad talked about the one million who 
have come from Iraq to Syria. That is a factor which could be 
unifying among the Arab countries to try to help the United 
States reestablish order in Iraq, because their countries are 
being destabilized by the tremendous flux of immigrants.
    When we hear from Secretary Sauerbrey, we will get into the 
issue of how many unallocated spots there are and the capacity 
of the United States to take additional refugees within our 
existing quotas as we take a look at the Immigration Reform 
bill which will be on the docket soon.
    We passed a bill out of the Senate last year, the House 
passed a bill, and regrettably we were unable to conference and 
come to a legislative conclusion. But when we take up this 
issue again, the matter of refugees ought to be high on our 
agenda to incorporate into immigration reform.
    This is a very important hearing and it is good to focus 
attention on it. I look forward to the presentation of the 
witnesses, especially to the individuals who will testify here 
today, one of whom is a Pennsylvanian and one of whom had been 
a Pennsylvanian, who will testify incognito.
    Thank you very much, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Kennedy?

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Senator Leahy, for 
scheduling the hearing.
    Senator Specter, Senator Cornyn, who is our Ranking Member 
on the Immigration, Border Security and Refugee Committee, and 
it is good to see Senator Cardin here as well.
    Five years ago, Arthur Helton, perhaps this country's 
staunchest advocate for the rights of refugees, wrote, 
``Refugees matter for a wide variety of reasons. Refugees are a 
product of humanity's worst instincts--the willingness of some 
persons to oppress others--as well as some of its best 
instincts--the willingness of many to assist and protect the 
helpless. In personal terms, we care about the refugees because 
of the seed of fear that lurks in all of us that can be stated 
so simply: it could be me.''
    A year later, Arthur Helton gave his life for his beliefs. 
He was killed in Baghdad in 2003 while meeting with the U.N. 
Special Envoy Sergio Vieira De Mello when a terrorist bomb 
destroyed the U.N. Headquarters in Iraq.
    But his words resonate today, especially as we consider the 
very human cost of the war in Iraq and its tragic effect on the 
millions of Iraqis--men, women and children--who have fled 
their homes and their country to escape the violence of a 
Nation increasingly at war with itself.
    Today in Iraq, according to the High Commissioner for 
Refugees, 1.7 million people have been driven from their homes; 
up to 2 million have sought refuge in neighboring countries, at 
least 700,000 in Jordan, 600,000 in Syria, 80,000 in Egypt, 
54,000 in Iran, 20,000 in Lebanon.
    Thousands more are on the move daily. More than 10 percent 
of the people of Iraq are refugees. We will see increasing 
numbers as sectarian, ethnic, and generalized violence 
continues unabated.
    Like other aspects of the war, we bear a heavy 
responsibility for their plight. As the Iraq Study Group 
states, ``Events in Iraq have been set in motion by American 
decisions and actions.'' The study group concluded that ``if 
this refugee situation is not addressed, Iraq and the region 
could further be destabilized and humanitarian suffering could 
be severe. America must respond.''
    Last year, however, the United States admitted only 202 
Iraqi refugees. A special immigrant visa program for U.S. 
military Iraq and Afghan translators currently has a 6-year 
waiting list. We can do better than that.
    The answer, of course, is not to bring every Iraqi refugee 
to the United States, but we do have a special obligation to 
keep faith with the Iraqis who have bravely worked for us, and 
often paid a terrible price for it by providing them with safe 
refuge in the United States. I hope this hearing will inform us 
all about how we might better assist Iraqi refugees and enable 
us to deal with it fairly and quickly.
    We should work urgently with Iraq's neighbors, especially 
Jordan, Syria, and Lebanon, who are bearing the greatest 
refugee burden. Prompt action is essential to prevent 
destabilization of the region and to relieve suffering and save 
lives.
    An international conference sponsored by the countries in 
the region and the United Nations could be a first step in 
addressing the growing needs of Iraqi refugees and internally 
displaced people.
    Our Nation is spending $8 billion a month to wage the war 
in Iraq, yet to meet the urgent humanitarian needs of the 
refugees who have fled the war, the State Department plans to 
spend only $20 million in the current fiscal year.
    The U.N. High Commissioner has issued a $60 million appeal 
to fund its work with Iraqis for the next 12 months. Clearly, 
the United States should fund its share of that amount and take 
other steps to ease the burden on countries hosting large 
numbers of these refugees.
    Our witnesses today will testify about personal stories of 
courage, loyalty, heroism, and tragedy. They represent only a 
small number of countless stories of human indignity and 
suffering.
    Others have been criticized as traitors, infidels, and 
agents of the occupier. Some among them, such as the Chaldean 
Christians, have long been persecuted for their religious 
beliefs.
    We owe a special duty to protect all of them and their 
loved ones who are being targeted by insurgents and sectarian 
death squads because of their faith or their association with 
the United States.
    I thank Assistant Secretary Sauerbrey and the Office of the 
United Nation's High Commissioner for Refugees for being here 
and look forward to their plans for dealing with this 
extraordinary human tragedy.
    We thank the other witnesses for sharing their stories of 
fear, cruelty, and triumph. You are the human faces of this 
global problem.
    If Senator Cornyn wants to make a comment, we would be glad 
to hear it.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. America has a proud tradition of providing 
refuge and comfort to those desperately wishing to escape wars. 
America's shores are often the last best safe haven. Our 
tradition of opens arms dates back to the founding of this 
great Nation.
    We should all be proud of the fact that the United States 
welcomes more refugees than any other country in the world. 
America's refugee resettlement program is consistent with the 
values of a Nation committed to compassion. Our refugee policy 
also advances America's democratic values, while safeguarding 
our national interests. Most importantly, it saves lives.
    Today's hearing is an important one and I, likewise, thank 
the Chairman for scheduling it. I believe it will bring into 
focus the need to take a comprehensive approach toward our 
policy in Iraq, with the ultimate goal of helping the Iraqis 
achieve stability and security.
    Anything short of achieving this goal will pose a 
substantial security risk to our Nation, jeopardize our forces 
in Iraq, and dramatically escalate the refugee problem in this 
region.
    Sadly, the Iraqis have long suffered from human rights 
abuses at the hands of a brutal, blood-thirsty dictator. It 
reminds me of a comment I heard from an Estonian representative 
at the NATO parliamentary assembly a couple of years ago when 
he said, ``Peace in these repressive countries is more bloody 
than war.''
    The Iraqis, in the late 1980s, were the subject of a 
campaign begun by Saddam Hussein to exterminate the Kurds, 
resulting in mass executions, the disappearance of 
noncombatants in the tens of thousands, and the forced 
displacement of hundreds of thousands.
    In the 1990s, while continuing his oppression and slaughter 
of the Kurds, Saddam expanded his war on innocent civilians to 
the south, where estimates of Shi'a deaths range from tens of 
thousands to more than 100,000.
    Today, as has been mentioned, there is no shortage of 
refugees from Iraq, and many more internally displaced persons 
have suffered within that nation for quite some time.
    Indeed, when authorizing the President to use force in 
Iraq, Congress included as a justification this clause: 
``Whereas, Iraq persists in violating resolutions of the United 
Nations Security Council by continuing to engage in brutal 
repression of its civilian population, while the refugee and 
internally displaced person situation in Iraq is severe, it 
would only worsen by degrees of magnitude if we followed the 
plans that some have offered to withdraw from Iraq before it is 
able to sustain itself, to govern itself, and defend itself.''
    I am not alone in this belief. Just this past Friday, I 
asked Secretary of Defense Robert Gates and the chairman of the 
Joint Chiefs of State, General Peter Pace, what the 
humanitarian consequences would be if the United States were to 
pull out of Iraq immediately.
    They, too, are convinced that a premature draw-down of 
troops would lead to a sharp increase in internally displaced 
persons, increased numbers of murders, sectarian violence, and 
ethnic cleansing. As a compassionate Nation, we cannot stand by 
and allow further tragedy to ensue.
    So, Mr. Chairman, I look forward to receiving the testimony 
of our distinguished witnesses here today and working with my 
colleagues to try to find a way to address this current 
situation.
    We must, I would hope, resist taking actions that actually 
worsen the plight of current refugees in Iraq, exacerbate the 
refugee situation, and, at the same time, undermine our 
national interest.
    Thank you very much.
    Senator Kennedy. Thank you very much.
    Our first witness is the Honorable Ellen Sauerbrey, who 
became Assistant Secretary of State for Population, Refugees 
and Migration in January of 2006. She heads the Refugee Bureau 
at the State Department that provides protection assistance and 
sustainable solutions for refugees, victims of conflict and 
advances, and U.S. population and migration policies.
    Ms. Sauerbrey formerly served as U.S. Representative to the 
United Nations Commission on the Status of Women. Before that, 
she served as the Minority Leader of the Maryland House of 
Delegates and was the 1994-1998 Republican nominee for Governor 
of Maryland.
    We want to welcome Assistant Secretary Sauerbrey. We had a 
good chance to visit with you on this committee when we have 
talked with the Secretary of State about refugee matters. We 
know your own strong interest and commitment, and we welcome 
you to the committee.

STATEMENT OF ELLEN SAUERBREY, ASSISTANT SECRETARY OF STATE FOR 
   POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Sauerbrey. Thank you, Mr. Chairman, distinguished 
members of the committee. It is an honor to have the 
opportunity to appear today to discuss issues involving 
displaced Iraqis and Iraqi refugees.
    I welcome the opportunity to detail some of the actions the 
administration is taking to provide protection and assistance 
for Iraqis in neighboring countries of first asylum, and for 
populations inside Iraq. I want to assure this committee that 
this issue is the very top priority for my bureau.
    The administration shares your concern about the current 
situation facing Iraqi refugees and is committed to helping 
conditions for them in countries of first asylum. We are 
working closely with host governments in the region, with the 
United Nation's High Commissioner for Refugees, the 
International Committee for the Red Cross, and non-government 
organizations.
    Through these partners, we are providing assistance to the 
most needy refugees and are seeing durable solutions, including 
resettlement to the United States for those that require this 
important form of international protection.
    Since 2003, the administration has provided more than 
$800,000 to support the World Food Program, UNHCR, ICRC, the 
International Organization for Migration, and a range of NGO's 
that provide direct assistance to returning Iraqi refugees, 
internally displaced persons, and third-country national 
refugees that are inside of Iraq, and Iraqi refugees outside of 
Iraq to help meet basic humanitarian needs and support 
reintegration programs.
    U.S. Government support has increased the capacity of Iraqi 
government ministries working with refugees and internally 
displaced persons, provided training to non- governmental 
organizations serving refugees, and assisted numerous victims 
of conflict. These programs helped reintegrate many of the 
300,000 Iraqi refugees who returned home between 2003 and 2006, 
and helped many of the 500,000 IDPs inside Iraq.
    However, due to the upsurge in sectarian violence in 2006, 
this trend of repatriation has reversed itself and at present 
more Iraqis are fleeing their homes to other areas of Iraq and 
to neighboring countries than are returning. UNHCR estimates 
that between 1 to 1.4 million Iraqis are in countries bordering 
Iraq, though a large percentage of them had left prior to 2003.
    We believe the current population of Iraqis in Jordan and 
Syria is a mixture of Iraqis who departed before 2003 and the 
newer arrivals. Many organizations, including UNHCR, have 
raised concerns about new arrivals and growing numbers of 
Iraqis in these bordering countries.
    Though neither UNHCR, nor the governments of Jordan or 
Syria, have definitive figures on the size of the population. 
UNHCR has argued that the refugee crisis it predicted would 
occur, but that did not materialize after the invasion in 2003, 
is now upon us.
    Although we lack firm figures on how many Iraqis are 
seeking refuge in neighboring countries, we do know that many 
left with minimal resources and are living on the margins.
    Other than alRuwaished, which shelters a stable population 
of third-country nationals from Iraq, Jordan and UNHCR have not 
established refugee camps. Anecdotal reporting also indicates 
that many Iraqi children in these countries do not have access 
to schools or to adequate health care.
    We need better information on the needs of Iraqis in these 
countries, particularly their protection concerns. We are 
encouraging the Government of Jordan to allow a comprehensive 
survey of the needs of Iraqis in Jordan that would guide the 
international community in focusing assistance and protection 
activities. UNHCR is planning to conduct a similar survey in 
Syria.
    We hope our partners will be able to complete these surveys 
in the very near future. And I might mention that I met with 
the Charge from Jordan this morning to reinforce how important 
it is that this survey moves quickly.
    However, we are not waiting for precise numbers before 
responding to the needs of vulnerable Iraqis in neighboring 
countries. We are continuing our support to UNHCR and NGO 
programs benefiting Iraqis in these countries now.
    In 2006, the U.S. provided nearly $8 million of UNHCR's 
operational budget for Iraq, Jordan, Syria, and Lebanon. In 
2006, we also provided $3.3 million in funding to the 
international Catholic Migration Commission to assist the most 
vulnerable Iraqis in Lebanon, Syria, and Jordan.
    In 2007, we are expanding support for these, and similar, 
programs serving needy Iraqis in neighboring countries. But our 
ability to respond to the growing needs depends on receiving 
sufficient resources.
    The President's fiscal year 2007 request for migration and 
refugee assistance included $20 million for Iraqi humanitarian 
needs. The administration will continue to monitor the recent 
refugee and displacement situation and the ability of the 
international community to address the increased needs.
    Our support for UNHCR's protection mandate and our 
diplomatic efforts with host countries is essential to preserve 
the principals of first asylum and to ensure that assistance 
reaches vulnerable refugees.
    We continue to press all governments in the region to keep 
their borders open to those with a fear of persecution and to 
allow assistance and protection to reach these populations.
    Jordan and Syria have been generous hosts to Iraqis for 
many years and have largely kept their borders open as people 
have continued to flow out of Iraq in 2006. Both Jordan and 
Syria are also hosts to sizable Palestinian refugee 
populations, and we recognize the additional burdens Iraqi 
refugees place on these countries.
    We are working with UNHCR and with host governments to see 
how we can help bolster their capacity to provide the 
protection and assistance so Iraqis do not over-stretch the 
social service networks and the ability of these governments to 
continue to receive Iraqis that are seeking asylum.
    Another aspect of our response to Iraqi refugee needs in 
the region is an expansion of our U.S. resettlement program. 
Given the large number of Iraqis thought to be in Syria and 
Jordan, with some estimates as high as 1.4 million, the U.S. 
and other third-country resettlement programs will play a 
small, but important, role in meeting the needs of Iraq 
refugees.
    For that reason, we are working closely with UNHCR to 
prioritize U.S. resettlement for the most vulnerable Iraqi 
refugees. The U.S. has been resettling Iraqi refugees since the 
mid-1970s. To date, the U.S. has resettled more than 37,000 
Iraqis. The vast majority of them were victims of Saddam 
Hussein's regime.
    As the number of Iraqis arriving in Jordan and Syria 
increased in 2006, we have acted aggressively to expand our 
ability to offer more Iraqis refuge in the United States.
    In 2006, we provided $400,000 of funding directly targeted 
to support UNHCR resettlement operations. These expanded 
operations will increase registration efforts to help identify 
vulnerable cases and boost the number of referrals to our 
program and to those of other resettlement countries.
    We have provided an additional $500,000 for this purpose in 
2007. This is very important capacity building for UNHCR for 
the resettlement program to increase its ability to provide 
referrals.
    We do not have a quota on the number of Iraqis who can be 
resettled in the United States as refugees. The process of 
resettling Iraqis is the same as resettling Iraqis in need of 
protection from other parts of the world.
    The process includes identifying those in greatest need 
from among so many, conducting adequate background security 
checks, completing personal interviews, with adjudications, and 
coordinating the transportation and logistics for individuals 
approved for resettlement.
    In processing eligible Iraqis for resettlement in the 
United States, we will remain vigilant in preventing terrorists 
from gaining admission to our country.
    I want to recognize that some of the special populations 
that have received attention from humanitarian organizations in 
2006: minority populations in Iraq and Iraqis who have worked 
closely with the United States in Iraq.
    Some have called for special protection and programs for 
these people, including religious minorities such as Christians 
who have fled Iraq or those who have worked for the American 
government or U.S. organizations or companies. Many of these 
Iraqis are in refugee in Jordan, Syria or Turkey and may be 
unable to return to Iraq because they fear for their lives.
    We intend to ensure that these special populations receive 
full and expedited consideration and access to the U.S. 
resettlement program and we are encouraging them to contact 
UNHCR to make their needs known.
    I want to take just a moment to talk about important 
programs the U.S. Government supports inside of Iraq. While 
recent reports have highlighted the conditions of Iraqis in 
neighboring countries, we must not forget populations of 
concern still inside of Iraq itself.
    UNHCR and the Iraqi government estimate that there are as 
many as 1.7 million internally displaced persons, and another 
44,082 third-country national refugees in Iraq.
    The U.S. Government continues to support UNHCR, ICRC, and 
key NGO programs inside the country that assist communities 
with new internally displaced persons, recently returned 
refugees, and other victims of violence.
    For example, we support important programs of ICRC that 
upgrade hospitals throughout the country and provide medical 
services to those who are innocent victims of the armed 
insurgency.
    We also provide resources and diplomatic support to 
programs that seek to protect, assist, and provide durable 
solutions for Palestinians, Turkish, and Iranian refugees 
inside Iraq.
    In 2005 and 2006, we supported the movement of over 3,000 
Iranian Kurdish refugees from the Al Tash refugee camp near the 
strife-torn town of al Ramadi to a safe area in Northern Iraq, 
providing permanent housing, employment programs, and local 
integration support.
    We are also working closely with UNHCR and the governments 
of Iraq and Turkey to enable the voluntary return of more than 
10,000 Turkish Kurdish refugees from the Mahkmour refugee camp 
to their home villages in Turkey.
    The U.S. Agency for International Development continues to 
support the protection and assistance requirements of 
internally displaced persons in Iraq, mostly through non-
governmental organizations.
    These NGO's work closely with new IDPs to provide life-
saving and sustainable assistance throughout the country. The 
administration will continue to implement existing programs and 
monitor the displacement situation.
    Mr. Chairman, we appreciate your leadership on Iraqi 
refugee issues and we look forward to working closely with you 
as we seek to expand protection for these Iraqis, third-country 
national refugees, and IDPs, and to ensure that the vulnerable 
among them receive assistance, access to social services, and 
for the most vulnerable, the opportunity to resettle to a third 
country.
    I thank you for the opportunity to address the committee. 
This concludes my testimony. I would be happy to answer your 
questions.
    Senator Kennedy. Thank you very much, Madam Secretary.
    [The prepared statement of Ms. Sauerbrey appears as a 
submission for the record.]
    Senator Kennedy. We will take 6-minute rounds.
    I thank you, Madam Secretary. We have enjoyed working with 
you personally. I am going to make some observations just 
generally about the policy of the administration.
    I think this is an instance where, not unlike a number of 
other issues, whether it has been IEDs, the insurgency, or the 
armor, we are really missing the crisis and it has effectively 
exploded. There were 202 refugees admitted last year. Twenty 
million dollars for all refugees, despite our $8 billion a 
month for the war, $20 billion for next year. Money is not 
everything, but is a pretty good indicator about where the 
administration is.
    Now, I want to ask you if you will be of some help to us, 
first of all, in establishing special humanitarian parole. We 
have done it for groups in the Soviet Union. We have done it on 
Cuba. We have done it in Vietnam. We have done it at other 
times.
    Will you take that back to the Department and--at least I 
would hope you would--urge the Department to consider that, 
given the nature of the crisis. But will you give the assurance 
that you will take it back to the Department and give us some 
response about whether they will go ahead and do that, or if 
they will not, the reasons for it? Would you?
    Ms. Sauerbrey. Absolutely, Mr. Chairman. If I might add, I 
met just this morning with someone from Consular Affairs and we 
were talking about just this issue.
    Senator Kennedy. Good.
    Second, the commitment to activate a system to process 
refugees inside Iraq. That is enormously important. You have 
got a series of regional embassies. You have got the green 
zone. You have Mosul, Kirkuk, Basra, Hillah.
    Will you give us assurance that you will go back to the 
Department and consider activating a system to process refugees 
inside Iraq? Then I would like to know, this could also include 
the American embassies inside the country. Will you look at 
both of those?
    Ms. Sauerbrey. Mr. Chairman, I appreciate that. We 
certainly will. My Bureau has been holding conversations with 
our embassy--another one is scheduled tomorrow--to try to look 
at procedures that can be used. It is a complicated issue 
because of the security problems of people reaching our 
embassy, people coming into the green zone.
    We are, however, looking at ways that we can find to do 
processing inside of Iraq, as well as urging people who are 
extremely vulnerable to seek protection in Jordan, where they 
are more readily accessed.
    Senator Kennedy. That is true. But many of these countries 
are closing the borders now. I mean, the Jordanians, the 
Lebanese, the Syrians are hard pressed. The Saudis have closed 
theirs. So it is very difficult, if the borders are closed for 
these individuals, to get in. They cannot do it inside Iraq, 
they cannot do it outside.
    We are going to hear from various witnesses, stories of 
extraordinary courage and what they have done in terms of 
working with American service men. We are going to hear a very 
important story of that nature and the risks that they have 
gone through, in this instance translators, but in another 
instance a person that was providing water for American 
servicemen.
    So, inside the country as well as processing in embassies 
in that region, very, very important. I want to hear back from 
you, please, about what the Department is going to do on this.
    Next, should we have the 20,000 surplus in terms of the 
numbers, the 20,000 reserved? Those numbers are approved by the 
President of the United States. We have not had the resources--
we have talked about this previously--to do it. There are 
additional resources that are going to be necessary for the 
resettlement.
    I am thinking, we are talking about whether there are 
translators, those that work with military personnel, those 
that I think who have worked even with American independent 
contractors, those who worked with the press. They are all 
under the same kind of risks--we will hear more about that 
later.
    And if it is going to be the resources that are going to be 
necessary to be able to do it, we want to be sure, when that 
supplemental comes up, in terms of the one that we anticipate, 
that you will make the request for adequate resources to be 
able to process this.
    I know you cannot answer that precisely. I have been around 
here long enough. But give us your best shot at it, will you? 
[Laughter.]
    Ms. Sauerbrey. First of all, I want to assure you that our 
top priority--and we are absolutely seized with the issue--is 
how we can help those people who have worked for, and provided 
assistance to, the U.S. Government. That has got to be an 
absolute top priority.
    In terms of the resources, if we are fortunate enough to 
receive the funding that the Senate approved for our admissions 
program, we will have the 70,000 number that the President 
asked for, which has the 20,000 unallocated reserve. We are 
eagerly waiting for a resolution to this number.
    Senator Kennedy. Well, if it does not come I hope he will 
give consideration to a supplemental.
    My time is just about up. But this idea of a regional 
conference in the area. You have individuals who have moved in 
all of these countries, including Syria, including Iran.
    I think we are going to hear later in the day from the U.N. 
High Commissioner about the possibilities of having some 
regional conference, either under the Arab League or the other 
possibilities there.
    Can you give us some assurance that at least we are going 
to be a constructive and positive force and that we will 
participate in such an endeavor if it is under the leadership 
of the U.N. High Commissioner?
    Ms. Sauerbrey. I spoke to the High Commissioner on Saturday 
and he told me that they are moving forward with the OIC, and 
expect to have some sort of a meeting under those auspices in 
the spring. We certainly look forward to working in any way 
that we can to cooperate. This has got to be a coordinated 
effort.
    The United States is a very generous country, but we cannot 
do it alone, nor should we be doing it without coordinating 
with other countries in the region, as well as other 
resettlement countries and assistance countries.
    Senator Kennedy. I want to thank you. My time is up. I hope 
you will get back to us in a timely way, because time is of 
such importance.
    Ms. Sauerbrey. Thank you, Mr. Chairman.
    Senator Kennedy. Senator Specter?
    Senator Specter. Thank you, Mr. Chairman.
    Madam Secretary, in your statement you noted that there are 
1.7 million internally displaced people in Iraq. In your 
statement, you note that the United States has helped to 
resettle 37,000. That is a very small percentage of those who 
are in need. Is that adequate? What more can be done?
    Ms. Sauerbrey. Senator Specter, we recognize that if all 
the resettlement countries in the world take the maximum number 
that they can absorb, we will only touch a small percentage of 
this population.
    Senator Specter. What more can the United States do?
    Ms. Sauerbrey. What we think our effort needs primarily to 
be focused, on assistance and protection of refugees in the 
countries of first asylum.
    Senator Specter. But, Madam Secretary, how can we increase 
the number so that we do more for more than 37,000? Would you 
take that back to the Department? Because that is a relatively 
small number being accommodated.
    How about the unallocated spots where some 20,000 are 
allocated each year without any specific designation and a 
great many of those spots have gone unused? Two questions. How 
many spots are there unallocated, and why are more not being 
used for the Iraqis?
    Ms. Sauerbrey. Senator Specter, the Presidential 
determination was 70,000, at the time that that planning 
document was put together last spring when that work began, 
there was not at that point a massive outflow. We had allocated 
in the planning document 5,500 slots for the region. We left 
the 20,000 unallocated reserve for the purpose of being able to 
have flexibility in the program.
    Senator Specter. Well, why not use them now when there is 
such a pressing need?
    Ms. Sauerbrey. We certainly are hoping that we will be 
funded to use them. At this point, we--
    Senator Specter. Is it only a matter of funding? Is the 
State Department prepared to use those unallocated spots for 
the Iraqis?
    Ms. Sauerbrey. We would be using a significant number of 
them.
    Senator Specter. When you say ``significant'', what do you 
mean by that?
    Ms. Sauerbrey. I would say the overwhelming majority. There 
are other pressing areas in the world as well, but because of 
the significance of this outflow, I am sure that the largest 
portion by far would go to Iraqis.
    Senator Specter. Madam Secretary, as to the 37,000 who have 
come to the United States, is there qualitative information as 
to what kinds of people these are? Are they Ph.Ds? Are they 
scientists? Are they skilled? Are those who are coming from 
Iraq to the United States adding significantly to the 
productivity of our country?
    Ms. Sauerbrey. I think that we can say that for the 
majority of people who emigrate to our country.
    Senator Specter. Well, if they are well-qualified and if 
they are seeking asylum, if they want to go, we are not 
promoting a brain drain on Iraq. We are not asking their people 
to come to the United States. But where they are in need of 
refuge and they can benefit our country, that would be another 
very positive reason.
    Let me turn, now, to the idea of an international 
conference. I had an opportunity to visit in Syria and talk to 
President Bashir Assad in late December. He talked about 
Syria's willingness to host an international conference where 
the warring factions from Iraq would be brought to Damascus. He 
said he had already gotten the cooperation of Turkey. He 
intended to invite other Arab countries. He expressed concern 
about, as he put it, one million Iraqis who have come into 
Syria.
    Would this not be a very important resource for the United 
States to activate and to be willing to have a dialog with 
Syria, at least to the extent of dealing with this problem 
which of mutual concern?
    Ms. Sauerbrey. This would be a foreign policy issue, 
Senator, that would be a little bit out of my--
    Senator Specter. Well, you are in the State Department.
    Ms. Sauerbrey. This is true, and I will certainly take this 
back to the Secretary as a suggestion that you are posing.
    Senator Specter. Well, she has heard my suggestion. What do 
you think about it? [Laughter.]
    Ms. Sauerbrey. I think that any time that you can--
    Senator Specter. She has heard my suggestion and I have 
heard from her. But, now, what do you think? What do you think 
about it?
    Ms. Sauerbrey. I think that any time that you can get 
parties talking to each other, that something constructive has 
a likelihood of coming out of it.
    Senator Specter. Well, it certainly is a gigantic problem. 
The countries in the region--this could be some common ground. 
When we talk to Syria, we might also take President Bashir 
Assad up on his offer to try to control the border.
    We are talking about trying to stop the insurgents and the 
terrorists from coming into Iraq. He complains--and I have not 
had a chance yet to brief the Secretary as she is traveling, 
but I will be doing so next week--that he needs cooperation 
from the United States.
    In the last 7 seconds that I have, let me ask one final 
question. That is, what steps are we taking to be as sure as we 
can that the refugees who come into the United States under 
this program are not terrorists themselves?
    Ms. Sauerbrey. Senator, every refugee who comes into the 
United States has to be individually adjudicated by the 
Department of Homeland Security. They are screened for their 
background and every effort is being made.
    One of the reasons that you are seeing so few Iraqis that 
have come into the United States since 2003 is because of an 
enhanced security review that has been required that has made 
it very difficult for these Iraq refugees who have been 
referred to us by UNHCR to pass through the screening 
mechanism. That enhanced security review has also led to UNHCR 
not making referrals to the United States.
    So the security issue is very critical and very key to this 
whole issue, both in terms of how we balance the protection of 
the United States and, at the same time, maintain the 
humanitarian nature of our country to be a welcoming country to 
refugees.
    Senator Specter. Thank you for your contribution to public 
service, Madam Secretary. I know you have a long resume of 
activity and public life, from State legislature to candidacy 
for government. We thank you for that active participation and 
for the job you are now doing. So, carry our message back to 
Secretary Rice.
    Ms. Sauerbrey. Thank you, Senator.
    Senator Specter. Thank you.
    Senator Kennedy. Senator Cardin?
    Senator Cardin. Thank you.
    Secretary Sauerbrey, it is nice to see you again.
    Ms. Sauerbrey. Thank you, Mr. Speaker. May I call you Mr. 
Speaker?
    Senator Cardin. Not here. But that is fine.
    [Laughter.]
    It is nice to see you. We had a chance to work together for 
many years in the Maryland legislature and it is nice to have 
you before the Judiciary Committee.
    I want to followup a little bit on Senator Specter's point 
about 37,000, because if I understand correctly, most of those 
37,000 came to the United States when Saddam Hussein was in 
power in Iraq.
    So do you know the numbers that we have admitted under 
refugee status since the current campaign by the United States 
and coalition forces?
    Ms. Sauerbrey. Yes, Senator. We have admitted, since 2003, 
466. The main reason that that number dropped so dramatically, 
as I explained to Senator Specter, is after 2003 the Congress 
enacted significant changes in the law that created a need for 
much-enhanced security testing.
    Senator Cardin. And I certainly understand that. But it 
just underscored a point that Senator Specter made and Senator 
Kennedy made. Knowing the numbers of refugees that are in Iraq 
and in the surrounding countries, knowing full well that many 
of the individuals who are seeking asylum in the United States 
are doing so because of helping the United States and Iraq, as 
the two witnesses that will be testifying later, and the ordeal 
that they had to go through in order to reach safety, I am 
certain many have not reached safety. I think we have a much 
stronger obligation to make this country available.
    I just really want to underscore a suggestion Senator 
Kennedy made about being able to provide services within Iraq 
for those who seek asylum in the United States. It is just 
impossible for many to go through what these two witnesses, who 
later will be testifying, did to come to the United States 
without some assistance from us in Iraq or in that region. So 
it seems to me that is the least we can do.
    The fact that we only have 400 that have been able to make 
it through our process to be able to come to America, I think 
speaks volumes about the need for us to find a policy that will 
be more accommodating so that we accomplish some of our 
responsibility here to help those that are in need.
    So I hope you will do more than carry it back. I hope that 
we will come up with some workable plans in order to make this 
program work in our country.
    Ms. Sauerbrey. Thank you, Senator. As I indicated earlier, 
we are in discussions with our embassy, not only in Baghdad, 
but our embassies in the bordering countries so that we are 
trying to find a way to address those inside of Iraq as well as 
those who have reached, perhaps, Amman.
    We are looking at special visas. We are looking at special 
benefit parole. We are looking at trying to find some way to do 
in-country refugee processing. I have to tell you, it is a very 
difficult issue to try to figure out how to do this within 
Iraq, within the green zone, within our embassy.
    How to do this, does not have an easy solution. I just want 
to assure you that we are working very diligently, trying to 
figure out a way to make it work.
    Senator Cardin. I appreciate that.
    But one of my concerns is, many of these individuals are 
not displaced within Iraq. These are individuals that perhaps 
are living in their homes, in their community, but are in fear 
of being killed or their families killed because they helped 
America.
    So I do not know if we have any numbers as to how many are 
in fear of their life, or fear of their family's life because 
of being identified with the United States, but it would be, I 
think, important for this committee if we had better 
information to work on.
    I would just encourage you to try to get the numbers from 
our command in Iraq as to what we are looking at as far as 
families that are at real risk today. One of the tragedies in 
Iraq is that we are not able to guarantee the safety of these 
families. So, I think it is obvious that we need to do what we 
can in Iraq, but we also need to make sure people are given as 
much safety as possible.
    Ms. Sauerbrey. We have developed an expedited system 
recently with UNHCR whereby we are able to provide them with 
information of people who have already chosen to leave Iraq 
that are moving to surrounding countries so that we can alert 
them to immediately process.
    In fact, just this week we have gotten an individual who 
had been brought to our attention by an NGO that had gone to 
Amman, and we were able to notify UNHCR. They brought them in 
and gave them refugee status immediately, and they have been 
referred to our resettlement program. So, the process is under 
way.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Kennedy. Thank you.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    Madam Secretary, in 2003 I had a chance to travel to Iraq 
with the Senate Armed Services Committee. I remember standing 
on the edge of a mass grave located in Iraq and was told by a 
U.N. representative that approximately 400,000 Iraqis lay dead 
in similar mass graves throughout the country, victims of the 
Saddam Hussein regime--Kurds, Shi'a and others who resisted his 
tyranny. The U.N. representative also, at the same time, said 
that about a million Iraqis had fled the country to other parts 
of the world.
    From what you said earlier, it sounded like the refugee 
flow out of Iraq reversed itself somewhat following Saddam's 
fall, but then again reversed itself with the outflow exceeding 
the inflow.
    Could you go through those numbers again and the relative 
time periods?
    Ms. Sauerbrey. Yes. Thank you, Senator. This is such an 
interesting and complex issue, I can tell you, I came into my 
position just about exactly a year ago, and at that time we 
were touting the fact that repatriation was so successful 
because most of the resources that we were spending at that 
time were to return people. A very large number of Iraqis were 
returning to Iraq and we were funding the assistance programs 
to sustain them.
    Senator Cornyn. And when did that change?
    Ms. Sauerbrey. That changed, largely, following the Sumara 
bombing in April of last year. So it really was not until 
about, I would say, July or August that we started becoming 
aware that there was a large number of people moving in the 
other direction.
    Senator Cornyn. When looking at a difficult problem, I 
think you would probably agree with me that it is important not 
only to look at what the effects are, but what the cause may 
be, of course, in trying to solve this problem.
    Would you agree with this: if there is anything that we 
might be able to do about the cause of the refugees flowing out 
of Iraq in fear of their safety because of the sectarian 
violence and the unstable environment, if there is anything we 
could do to stabilize Iraq to allow Iraqis to govern themselves 
and to defend themselves, it would go a long way to stemming 
the tide of people leaving the country out of fear for their 
own safety?
    Ms. Sauerbrey. Senator, there is no question that 
throughout the world most people do not want to be resettled in 
third countries. They want to go home. Refugees want to go 
home. They want to live in safety and dignity in their homes.
    So as we look at the solutions to this problem, and 
recognizing that only a small percentage under the best of 
circumstances are going to find an opportunity to resettle 
somewhere else, they are going to have to be the most 
vulnerable that we are able to identify that need resettlement 
that probably, for whatever reason, may never be able to go 
home. But making Iraq a stable country where the violence is 
brought under control is the most important thing that we could 
do for our refugee program.
    Senator Cornyn. Well, I will acknowledge the obvious and 
say our policy in Iraq is controversial. But what I hope is not 
controversial is our desire to try to solve this problem, not 
only in terms of the instability created in the Middle East and 
the likelihood of regional conflict and another failed state 
serving as a launching pad for future terrorist attacks, but 
also for the millions of people who are fleeing the danger in 
that country.
    I just hope that all of us in public life, those who have 
taken an oath to represent our constituents, to protect and 
defend the United States, will try to look for constructive 
alternatives and not just criticize.
    I think one of the most distressing things about the public 
debate about the way forward in Iraq is while the President has 
consulted with the vast array of people across the political 
and ideological spectrum, and with the best military minds 
available in our country and has come up with a plan, there are 
those who would simply criticize that plan and who have nothing 
else to offer by way of an alternative.
    I would hope this would be one of those things from a 
humanitarian standpoint, from the standpoint of simple human 
compassion, that we could rise above the typical 
contentiousness in Washington, the partisanship, and the 
divisive debates and try to find some way to find common cause 
to bring stability to Iraq and to allow what perhaps is the 
most humane thing we could possibly do--allow Iraqis to return 
to their home and to live in peace and safety and stability.
    So I hope, while we look at the effects of the turmoil and 
violence in Iraq and we try to deal with that as well as we 
can, we also will not ignore the cause and we will work 
together to try to find solutions.
    Thank you very much.
    Ms. Sauerbrey. Thank you, Senator.
    Senator Kennedy. Thank you very much, Madam Secretary. We 
look forward to hearing from you. We appreciate your appearance 
here this afternoon.
    Ms. Sauerbrey. Thank you.
    Senator Kennedy. We will move toward the next panel of 
witnesses. We will hear testimonies and have the opportunity to 
ask questions of the first two witnesses on this panel, and 
then I will ask that the remainder of the witnesses on this 
panel would take their seats.
    In order to protect the identity of our two witnesses and 
the lives of their families, I am going to ask that the 
audience and members of the press refrain from taking any 
pictures or video shooting of the witnesses during the 
testimony, and I thank you for your cooperation.
    Before I begin, I would like to commend each of the 
witnesses on this panel and their families for their courage in 
coming to testify and to tell their stories. Before introducing 
them, I would like to recognize the law firm of Morgan Lewis 
from Philadelphia and the Villanova Law School CARE Clinic. 
These attorneys and law students have been incredibly valuable 
to the witnesses testifying before us today, and I want to 
offer my thanks to Dino Privitera from Morgan Lewis, Brian 
Watson from Morgan Lewis, Michelle Pistone, Villanova Law 
School, who is a professor. She is strongly committed to this 
pro bono work in the law school.
    Sean Burke, Villanova Law School, and Robert Kidwell, 
Villanova Law School. Both the law firm and these law 
students--you will hear the result of their work--have just 
performed nobly and they deserve the highest commendation in 
terms of legal profession.
    They have made an extraordinary difference. They have been 
enormously helpful to this committee and their work is going to 
be exceedingly helpful to us, and I am sure the administration, 
as we go forward.
    Our first witness, Sami, is the first-ever recipient of the 
special immigrant translator visa from Iraq. He is a former 
interpreter and translator for the U.S. and the coalition 
forces of Mosul.
    Our second witness is John, who, along with his family, was 
granted asylum in the United States just a few months ago. He 
is a former truck driver, contracted by the U.S. military to 
supply water in its service camps. We will hear from John and 
his interpreter, Ameara Mattia. I am very, very grateful to 
them for their presence here today.
    Then we will introduce the remainder of our panel. I might 
just take a moment now to introduce Captain Zachary Iscol of 
the U.S. Marine Corps. He is currently assigned as a Team 
Leader in Company A, Foreign Military Training Unit, Marine 
Forces Special Operations Command.
    He was deployed to Iraq, where he was in charge of a 
combined action platoon comprised of 200 Iraqi soldiers and 30 
U.S. Marines. His platoon became a model for successful 
development of Iraqi security forces after fighting on the 
front lines in the November 4th assault to clear Fallujah. The 
platoons of Iraq soldiers were some of the first to participate 
in high-density combat operations. He later conducted security 
operations throughout Iraq's Anbar province.
    He is a recipient of the Bronze Star medal with Combat-
Distinguished V device, and the Combat Action ribbon. He will 
talk about the importance of Iraqi translators to the success 
of their mission.
    Then we have Lisa Ramaci-Vincent, who is the Executive 
Director of the Steven Vincent Foundation, which was created to 
assist families of indigenous journalists in regions of 
conflict throughout the world who are killed while doing their 
jobs, and also to support the work of female journalists in 
those regions. Previously she worked in the American Furniture 
and Folk Art Department at Sotheby's Auction House.
    Then we will hear from Ken Bacon, who serves as the 
president of Refugees International. From 1994 to 2001, he was 
the Assistant Secretary of Public Affairs, Department of 
Defense, where he advised the Secretary of Defense and other 
top officials. From 1969 to 1994, he was a reporter, editor, 
and columnist with the Wall Street Journal. He has appeared 
before our committee on a number of occasions on the issues of 
refugees, and we are grateful to all of them.
    So we will start, if we might, with Sami.

  STATEMENT OF SAMI AL-OBIEDY, FORMER TRANSLATOR FOR THE U.S. 
                   ARMED FORCES, PENNSYLVANIA

    Mr. Al-Obiedy. I would like to thank Chairman Leahy, 
Ranking Member Specter, Senator Kennedy, and members of the 
Senate Judiciary Committee for providing me the opportunity to 
testify and share my experiences with you as a former Iraqi 
translator assisting coalition and U.S. forces in Iraq. I am 
privileged and honored to do so.
    In order to protect my identity, and because of the 
concerns for the safety of my family back home in Iraq, I am 
testifying here today under the name of Sami Al-Obiedy.
    I am a 27-year-old Sunni Arab from Mosul, Iraq. In April of 
2003, shortly after U.S. troops arrived in Mosul, I volunteered 
to work as an Iraqi translator. I welcomed the opportunity to 
help U.S. and coalition forces because I believed that they had 
come to liberate Iraq from years of tyranny and oppression 
under Saddam's regime, under which I had lived my entire life.
    In my role as a translator, I helped U.S. and coalition 
forces build trust and working relationships with local Iraqi 
government officials, business, civic, and religious leaders. I 
accompanied U.S. soldiers on hundreds of convoys through 
hostile territory. Often the military vehicles in which we 
traveled were targeted by anti-Iraqi insurgents and terrorists 
with roadside bombs, rocket-propelled grenades, and ambush and 
sniper fire.
    During the time I served as a translator, I honestly 
believed I would be killed. For instance, I translated many 
discussions between U.S. forces and Mosul Police Chief Burhawi, 
who was eventually arrested in November of 2004 for working 
with terrorists and who was involved in the murder of Osama 
Kashmula, the Governor of Nineveh province.
    In September of 2004, Governor Kashmulla was en route to a 
meeting in Baghdad when his convoy was attacked by insurgents. 
The Iraqi police, under the command of Chief Kheiri Barhawi, 
had placed a towel over the Governor's window to shield him 
from the sun. In fact, the towel was to mark the spot where 
insurgents aimed their bullets which killed Kashmulla, the 
Governor of the province.
    I am saddened to say that the number of Iraqis who have 
lost their lives for the cause of freedom and democracy in Iraq 
is too long to recount today. Let me give you but one example. 
Samir, the lead interpreter for the Task Force Public Affairs 
Office was executed by several gunmen on a crowded street on 
his way to work.
    After being taken hostage by insurgents, he attempted to 
escape from his captors because he knew better than anyone the 
horrible fate that Iraqis who worked for coalition forces 
faced.
    He broke free at an intersection and ran into a crowded 
open market. The terrorists chased him down and shot him in the 
back. One of the terrorists then calmly approached Samir, stood 
over him, and shot him point blank in the face and walked away.
    I, too, have been targeted for death. My name was listed on 
the doors of several mosques calling for my death. Supposed 
friends of mine saw my name on the list and turned on me 
because they believed I was a traitor.
    Encouraged by many U.S. soldiers, I decided that I would 
leave Iraq on November 9 of 2005. As it turned out, I almost 
never made it. On November 7, I was seriously injured in a 
targeted car bombing. I was in a car traveling through a Mosul 
neighborhood when a suicide bomber, in a car directly behind 
me, blew himself up. I was hit by shrapnel in the face, 
bloodied and dazed. I am fortunate to be alive.
    Following this brush with death, I fled Iraq. Upon my 
arrival in the United States, I sought advice for obtaining 
asylum. My attorneys prepared and filed my applications for 
asylum and application for special immigrant status under the 
newly enacted law that provides protective status to those of 
us who served as translators for the American forces in Iraq.
    In June of 2006, I learned that I had been granted special 
immigrant status. As a result, today I live free from the fear 
of persecution and threats to my life that I faced on a daily 
basis in Iraq. My hope is that all brave Iraqis who worked and 
braved so much will have the same chance as I have had to live 
in freedom.
    As it did with me, the road to a free and democratic Iraq 
begins, first and foremost, in the hearts and minds of the 
Iraqi people. Without the ability to communicate with the Iraqi 
people in their own language, democracy and freedom will be at 
risk.
    Terrorists understand this concept all too well and that is 
why they have, and will continue to, specially target Iraqi 
translators and kill those who have dared to give freedom and 
democracy a voice in Iraq.
    Senators, I am happy to answer any questions.
    Senator Kennedy. Very good. Thank you very much.
    We will come back to some questions.
    [The prepared statement of Mr. Al-Obiedy appears as a 
submission for the record.]
    Senator Kennedy. We will listen, if we could, to John. We 
will listen to your testimony and then we will have questions 
for both.

STATEMENT OF JOHN, FORMER TRUCK DRIVER (SUBCONTRACTOR) FOR THE 
                 U.S. ARMED FORCES, CALIFORNIA

    John. Thank you for having me here today. With your 
permission, I would like to read my entire statement to you in 
Aramaic and then have my statement read to you by my 
interpreter in English. I promise to be brief, and thank you 
for listening.
    Senator Kennedy. We will proceed in that way, John.
    John. My name is John and I am 48 years old. I have a brief 
statement to give to the committee today. I would ask that my 
full statement be made a part of the record.
    [The prepared statement of John appears as a submission for 
the record.]
    John. I am a native of Iraq, born in Batnaya, Mosul. My 
family and I were granted asylum in the United States just 2 
months ago.
    My wife, my six children and I fled Iraq after terrorist 
groups targeted me and my family because I aided Americans by 
supplying water to their service camps. I worked for a 
contractor paid by the American military to deliver water to 
its servicemen.
    Additionally, my family and I are Chaldeans, and thus 
practicing Catholics. As a result, we were often the targets of 
harassment and attacks by the Islamic majority who associated 
us with the Americans. It is because of this persecution that 
thousands of my fellow Chaldeans have fled Iraq, making 
Christianity virtually extinct in the country.
    On two occasions, I was beaten by Islamic terrorist groups 
that knew my name and threatened that if I did not leave the 
country, I would be killed.
    On the day of the first attack, I went to work delivering 
water to the Americans along with my son. At about 9 that 
morning, we saw what appeared to be a road blockade ahead. 
Before we could realize what was happening, my son and I were 
dragged out of the cab of our truck. We were positioned face 
down on the side of the road by a group of terrorists.
    I could not make out the identity of these men, but they 
were heavily armed and were wearing green bandannas decorated 
with the three stars from the Iraqi flag. They kept saying to 
me, ``Don't work with the Americans,'' and one of them struck 
me in the face with the butt of his gun, permanently damaging 
my jaw.
    Another man twisted my son's arm so severely that he broke 
it. They knew my name and instructed me that this was a warning 
and that I would be killed if I continued assisting the 
Americans. After they made their threat they departed, leaving 
us bloodied on the side of the road.
    It was at this point that everything began to change for my 
family. My wife feared for our children's lives so much that 
she refused to let them go to school and I stayed up most 
nights watching out for any signs of trouble near our home. 
Despite the warning from the first attack, I continued 
delivering water for the Americans.
    I was attacked a second time, roughly 5 months after the 
first attack. I was alone, making a delivery to the American 
soldiers. I was stopped on the road and a man got into my truck 
and pointed a gun at my head. He ordered me to follow the 
vehicle in front of me. I followed the vehicle into the desert.
    When we stopped, five additional terrorists exited the 
vehicle and ordered me out of the truck. The men were speaking 
Farsi and were dressed in long white robes, with masks covering 
their faces. The six terrorists blindfolded me and repeatedly 
struck me in the face with their guns. They called me by name 
and they knew I had been warned before. They told me they were 
going to kill me.
    I pleaded for my life. Five of the terrorists were yelling, 
``Kill him.'' One, however, spoke up and said, ``We will not 
kill you, but you must leave the country immediately.''
    If I did not leave, they promised me they would kidnap and 
slaughter my entire family. They continued to beat me until I 
was knocked unconscious. I awoke several hours later alone in 
the desert. I returned home to tell my family we had to leave 
the country immediately.
    We had family in America, and since my assistance to 
American soldiers was partly responsible for my family's 
persecution, we decided to flee Iraq for the United States.
    Two years ago, after traveling through five countries and 
four continents, we took a taxicab from Mexico to the United 
States border. Just 1 week later, asylum was granted. We flew 
to California, where I was reunited with my children, my 
brother, my mother, and several members of my family.
    Two years ago yesterday, I was fleeing Iraq in the back of 
a bus, just starting my long journey to America. My future was 
unknown. But now, thanks to the help of many people and my 
family, I have been blessed with asylum in this country.
    I thank you for your graciousness in allowing me to speak 
here today, and I ask that you continue to be gracious to my 
former countrymen and fellow Chaldeans who have been forced to 
leave their homes.
    Thank you very much.
    Senator Kennedy. Thank you very much, John. These are 
enormously moving stories. People use words here and around the 
world, but you have been living this nightmare for yourselves 
and your families, and they are extraordinary stories of 
courage and heroism in your work for Americans and the 
servicemen.
    Let me just ask, first, Sami, you were obviously targeted. 
You have mentioned other individuals who were translators who 
were targeted. What was the sense among the translators? Did 
some others of them flee? Do you know people that would flee? 
Why would people come back in and work and be translators?
    I think you mentioned to us earlier when I saw you at 
noontime that many translators that are American translators 
worked for the higher echelons, but that at your level, you 
have worked with, as we will hear later, the Marines and others 
in local communities.
    As your own testimony was, you guided different groups to 
different roads and different communities, and a more fuller 
explanation as to the work that you have done at great risk in 
terms of providing information to Americans.
    What is the general sense? Do you feel that you were 
targeted? Did other translators feel they are targeted? Do they 
flee? Do they feel that America is going to be there for them, 
as you have been there for America? What is the mood?
    Mr. Al-Obiedy. Thanks for your question, Senator Kennedy. 
When a translator decides to work for the U.S. Army to help 
support democracy and freedom in Iraq, then the translator puts 
his life on the line. That is a decision someone has got to 
make when they first go and apply for the job.
    Once you make this decision, you are in, you put your life 
on the line. Then you have to agree to accept all the dangers 
and the risks that you take that will come out of it, until 
some point when translators find themselves in a very critical 
situation, like 1 day finding terrorists are trying to attack 
their families, that is what matters the most.
    Senator Kennedy. They print your name at the mosque. Is 
that true?
    Mr. Al-Obiedy. Yes, sir. I saw my name on a list, on 
several lists on the walls of the mosques. They call us 
traitors, and people wanted by the terrorists, or jihadists, or 
whoever. They call us traitors, and under these names they try 
to make it more logical to the normal people.
    Then they start assassinating anyone, even those who left 
the job, resigned their positions with the U.S. Army. Still, 
you have got a record with them. So no matter how long it has 
have been since you left working for them, you still have that 
record. The only thing you could do is leave the country with 
your family.
    Senator Kennedy. Well, let me ask, when you left the 
country--now, in order to be eligible for this program you have 
to get a general or flag officer to state that you have been a 
translator for over a year.
    Mr. Al-Obiedy. Yes, Senator.
    Senator Kennedy. I imagine that has its complications as 
well for other translators to be able to get it. So what 
happened? You leave. Did you then hope to get into the United 
States? Just very quickly. Did you hope to get into the United 
States, and was this a problem?
    Mr. Al-Obiedy. First of all, when I left the country I was 
just hoping to stay alive. That was my main concern. Then I was 
able to come to the United States. Later on, when I came over 
to the United States, I was able to obtain a letter of 
recommendation from General Hamm, Carter Hamm, who was the 
commander of the forces in Iraq in Mosul. So it is very hard, 
of course, unless the general knows the person individually to 
write a letter and recommend you for this program.
    Senator Kennedy. John, let me ask you, now, you did not 
serve as a translator, but you certainly worked and risked your 
life in providing for American troops. You were beaten, you saw 
your children beaten, and you were obviously threatened.
    Now, as I understand it, it took you three or four 
different passports to get in here. Just one passport? I 
thought he went to other countries. I thought I was told at 
lunchtime that he had different passports, getting into 
different countries.
    All that being aside, do you know of other Iraqis that work 
for Americans or Americans that were targeted and whose lives 
were at risk and tried to flee the country or wanted to come to 
the United States and were unable to do so?
    John. I do not know about others. I know about myself and 
my story. I know other people have fled Iraq for many different 
reasons, but I am not sure of their exact reasons.
    Senator Kennedy. All right.
    Just a final question, and then my time is up. Let me ask 
you, John or Sami, do you know why you were targeted? Why were 
you targeted? How did you get caught up in the civil war, 
sectarian violence, whatever you want to call it? Why do you 
think they were after you some time ago? When did you first 
detect that they were going after you? A couple of years ago 
now? Why were they after you for working for Americans? Who was 
it that was after you? Were there not any groups around to try 
and protect you?
    Mr. Al-Obiedy. Yes, Senator. Like I mentioned, the 
connection between the coalition forces and the Iraqi 
civilians, the Iraqi community, is the translators who would 
try to bridge the gap, try to communicate between both sides. A 
lot of people who are anti-democracy, anti-freedom, do not like 
that. They do not want any connection between both sides, the 
American side, freedom.
    It promotes the ideals of freedom and democracy and these 
people who want the tyranny and oppression to stay in the 
country, and the darkness. So these people, they pay money and 
they hire people to kill us, to hunt for translators. They have 
all the details and information about every single one of us.
    So, a lot of people are involved in that, Ba'athists and 
radical Islamics, and some people from neighboring countries 
who want to keep the situation chaotic. That is basically it.
    Senator Kennedy. All right.
    Senator Specter?
    Senator Specter. Thank you, Mr. Chairman.
    Thank you, Sami, and thank you, John, for coming in here 
today to testify and to provide evidence which will inform the 
American people of the need to have a refugee program. We 
salute you, Sami, for what you have done as a translator, and 
you, John, for helping the United States forces there.
    We thank Morgan Lewis for providing pro bono work. It is in 
the great tradition of the American lawyer to help people who 
are in need of help without cost. And we congratulate the 
Villanova law students for assisting John in making his case 
and helping him come forward. It is nice to see so many 
Pennsylvania connections with assisting you men who have done 
so much and are so brave.
    Sami, the first question is for you. I note in the resume 
that you left Iraq in the fall of 2004 after death threats and 
fled to Syria. Then you returned to Iraq in February of 2005 to 
complete your college studies. Why did you go back to such a 
dangerous situation?
    Mr. Al-Obiedy. Senator, when I left the country there was a 
reason. At that time, my best friend who was a translator was 
abducted, and my name was next to his so I had to leave the 
country the same day. I stayed at someone's house and left the 
next morning.
    Senator Specter. So why did you go back?
    Mr. Al-Obiedy. I had to go back because I really wanted to 
finish my studies. I had one more semester left for my school 
to get my degree.
    Senator Specter. Well, there are good schools in 
Pennsylvania, and you wanted to go back to Iraq?
    Mr. Al-Obiedy. Sure. Sure. I would love to. I would love to 
go back to school here, and eventually I was able to finish my 
studies.
    Senator Specter. Sami, I note that in March of 2006, 
according to the summary, you learned of a training schedule to 
be held at the law firm of Morgan, Lewis & Bockius in 
Philadelphia and you enrolled in the training schedule. What 
kind of training was it, and why did you need some special 
instruction to enable you to apply for refugee status?
    What I am looking for is, how complicated is it for someone 
in your situation to achieve refugee status, and how 
complicated is the State Department making it for you to get 
this kind of special training?
    Mr. Al-Obiedy. It is really, really complicated and 
difficult to obtain such status.
    Senator Specter. Morgan Lewis only has 1,000 lawyers. They 
are limited as to how much training they can give.
    Mr. Al-Obiedy. I am sorry. I did not hear the question.
    Senator Specter. I said, go ahead with what kind of 
specialized training. How complicated was it?
    Mr. Al-Obiedy. You are referring to the special immigrant 
status for translators?
    Senator Specter. The special training that you got from 
Morgan, Lewis & Bockius.
    Mr. Al-Obiedy. The training. I went there to listen to see, 
what is it like, and what is the training about, to know about 
all the refugees and asylum in this country. So I attended that 
conference and later on I was able to get a pro bono lawyer 
from Morgan, Lewis & Bockius.
    Senator Specter. Well, if it is so complicated on the path 
you have taken, the question arises in my mind as to how others 
are going to get sufficient knowledge and information. 
Everybody cannot be trained by a law firm to know what to do to 
get this refugee status. What is your thinking on that?
    Mr. Al-Obiedy. It took me a really long time and there were 
a lot of people involved in that to get the right connection, 
to get to these people to represent me on a pro bono basis.
    Senator Specter. Sami, I do not have much time. I want to 
ask you one more question before turning to John.
    Mr. Al-Obiedy. All right.
    Senator Specter. That is, what is the attitude of the 
Iraqis as a generalization? I know you can only speak for 
yourself and your own experience. But is there a sense of 
appreciation for what the United States has done or do the 
Iraqis think that the United States ought to be doing more now 
on this refugee issue?
    Although the United States moved in to depose Saddam 
Hussein, a brutal murderer, that our action has set the stage 
for the need for you to become a refugee. How do you feel about 
the United States, and what do you sense your countrymen feel?
    Mr. Al-Obiedy. My countrymen? The general sense on 
appreciation to the United States differs. At the time back 
then, right after the war, a lot of people--I would say over 90 
percent of my countrymen--appreciated the Americans and 
appreciated the democracy and the freedom that America came 
with. As the situation differs from time to time, they just 
want to be more stable. That is what everyone wants.
    Senator Specter. Let me proceed, now, to you, John, to 
commend you for coming to the United States. And you have six 
children, so obviously it was not an easy matter to bring your 
entire family.
    I note from the resume that you were detained in Berks 
County, Pennsylvania, where you were granted asylum 2 months 
ago.
    The two questions I have for you are, how was it with such 
a large family traveling, and what happened to you in Berks 
County, Pennsylvania on your detention that led to your grant 
of asylum?
    John. Are you referring to the treatment in Pennsylvania?
    Senator Kennedy. Maybe you could ask him, was he not in 
detention there for a period of time with his family? Maybe you 
could describe that, if that is part of it. You told me about 
that at noontime. Why do you not just tell us what you 
mentioned to me at noontime?
    Senator Specter. What happened to you when you were in 
Pennsylvania in detention in Berks County near Reading, 
Pennsylvania? What happened to you there?
    John. My children attended school. We were all taken care 
of. Absolutely, it was difficult because it was detention. We 
had very nice treatment. We did not have any problems.
    Senator Specter. Thank you very much. Congratulations, 
John. Congratulations, Sami.
    Senator Kennedy. Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    Sami, I wanted to ask you about not just your situation, 
but to what extent other Iraqis who cooperated with the 
coalition forces, particularly Americans, have a well-founded 
fear of persecution.
    I would imagine that the story that you and John have told 
us here today about your cooperation with coalition forces 
could be repeated many times--perhaps thousands, maybe tens of 
thousands of times--across Iraq by people who have cooperated 
with coalition forces in opposition to Saddam. Could you give 
us an idea about how many people, potentially, we would be 
talking about?
    Mr. Al-Obiedy. Personally, I have close friends I have lost 
just because they worked as translators and supported the 
coalition forces. I mentioned one of my friends whose name is 
Samir who worked for the Public Affairs Office, Task Force 
Olympia.
    His office was in charge of the press and newspapers. He 
used to, as many of us, take five cabs a day to get to the 
base, back and forth. He used to do that to hide, for the 
terrorists not to be able to spot him. One time, he was shot on 
his way to work in the morning, and he was shot to death. He 
tried to escape.
    He knew that if they kidnapped him, they would try to tape 
him and then sell CDs on the markets. They sell CDs. They 
entitle them, ``Traitors and Agents''. These CDs are executions 
of the translators. That is how they do it. It is happening 
every day.
    Senator Cornyn. Well, Sami, in addition to the translators 
such as yourself and your friend, who unfortunately was killed, 
there are many Iraqis who cooperate and provide intelligence 
tips to American and coalition forces, obviously people who 
volunteered to serve in the police and who have been trained, 
and in the Iraq army, now over 300,000 people in the Iraqi army 
alone, and contractors like John who have provided water and 
other services and goods to our troops.
    My point is, there are many, many, many Iraqis who have, in 
one way or another, cooperated with American and coalition 
forces against the terrorists, against those who were trying to 
tear Iraq apart. Would you agree with that?
    Mr. Al-Obiedy. If I did not agree with the idea of 
supporting democracy and freedom, I would never have worked as 
a translator and supporting the coalition. So, that was the 
belief that you believe in. Living under Saddam's tyranny for 
my entire life, for 25 years, knowing how it was like to live 
under a tyrant, a dictator, it is just hard.
    When an opportunity for the Iraqi people comes like that to 
promote democracy and freedom and for a new Iraq, then why, for 
people like myself, do we not just all cooperate to make a 
better Iraq?
    Senator Cornyn. I am sure that you and your family have 
sacrificed much, and we are glad you are here to share your 
experience.
    Mr. Al-Obiedy. We are honored to do so.
    Senator Cornyn. We would hope that Iraq can be stabilized 
so people, if they choose, can stay in Iraq and have a better 
life.
    Mr. Al-Obiedy. We hope that, too.
    Senator Cornyn. John, I would like to ask you about your 
experience coming to the United States. In your statement, you 
said you flew on a plane from Greece with the help of 
smugglers, and then traveled through five countries and four 
continents, and finally took a taxicab from Mexico to the 
United States border and arrived at San Ysidro, California. Is 
that correct?
    John. Yes, the statement is true. When we entered the 
United States, we handed our passports to the officers and we 
asked for asylum.
    Senator Cornyn. And the passport that you handed to the 
U.S. official, your statement says it was a false passport from 
Greece. You handed that to the officer and you asked for 
asylum. Is that correct?
    John. Yes, it was.
    Senator Cornyn. How did you know who to talk to, which 
smugglers to contact and how to get to the United States? How 
did you go about figuring that out and making that 
determination?
    John. In Greece, we met somebody that was a smuggler. He 
took care of all that for us. He took us all the way to Mexico. 
Then from Mexico, he put us in a taxicab and we entered the 
United States.
    Senator Cornyn. Thank you.
    Mr. Chairman, my time is up. Thank you.
    Senator Kennedy. Well, we want to thank both of you very 
much. You see behind you our friends from Villanova. We thank 
them as well. The best way we can try and thank you is to let 
those who have devoted themselves to America there have at 
least as much help and support as we possibly can. We thank you 
very much for being here.
    Mr. Al-Obiedy. Thank you, Senator. It is an honor.
    Senator Kennedy. Thank you.
    John. Thank you, Senators.
    Senator Kennedy. Thank you very, very much.
    We will proceed with the rest of our panel here. We will 
start with Captain Iscol, if we could. I think for those of us 
on the committee know, rather than submitting statements that 
have to go through the review process, that he made himself 
available, for which we are very grateful.
    All of us are very appreciative of your service and that of 
your fellow Marines and soldiers, sailors and airmen serving in 
Iraq, and I understand that as part of that service, in 
Fallujah. In Anbar province and elsewhere you gained extensive 
experience working alongside and employing Iraqi translators.
    In your estimation, as you know, there is a program that 
permits 30 interpreters a year to resettle whose lives have 
been threatened because of their ties to the United States. 
Could you tell us, first of all, a little bit about how 
important it was to have Iraqi translators in terms of your 
effectiveness? Now, you had, as I understand, what, 30 Marines 
and 200 Iraqi soldiers?
    Captain Iscol. Yes.
    Senator Kennedy. Yes. And you might just describe what you 
mentioned to me earlier today about how you worked and trained 
these groups of soldiers and how you operated and how you 
brought in these translators and you all worked with the 
families, worked with the local communities and really became a 
very solid team. All of them became a team, and perhaps the 
role of the translators in terms of helping you and assisting 
you to bring about that function.
    Captain Iscol. Yes, sir. I have not been able to prepare 
written testimony, I do have oral testimony that I would like 
to give.
    Senator Kennedy. All right. That is fine.
    Captain Iscol. And it will answer your questions.
    Senator Kennedy. Thank you.

    STATEMENT OF CAPTAIN ZACHARY J. ISCOL, FOREIGN MILITARY 
 TRAINING UNIT, MARINE FORCES SPECIAL OPERATIONS COMMAND, CAMP 
                    LEJEUNE, NORTH CAROLINA

    Captain Iscol. First, I would like to express my gratitude 
to the Chairman and to members of the committee for providing 
me the opportunity to testify today.
    During my service in Iraq I incurred an obligation to 
safeguard and protect a number of brave Iraqis. Today you are 
helping me fulfill that obligation, for which I am extremely 
grateful.
    During the latter half of 2004, I served as the commander 
of a very successful combined action platoon. It was comprised 
of 30 U.S. Marines and 250 Iraqi soldiers. I learned that we 
cannot win the war in Iraq alone. Tactically, 
counterinsurgency, and especially the development of credible 
partner nation forces, is all about personal relationships.
    I am here today to explain that we cannot cultivate these 
relationships without the service of Iraqi translators who join 
our ranks at great risk to themselves and to their families.
    I am incredibly proud of the job my Marines did in Iraq. 
Though trained to close with and destroy the enemy by fire and 
maneuver, they adapted to fight a complex counterinsurgency.
    With our translators as teachers, they studied the language 
and the culture and lived up to our First Marine Division's 
maxim of ``No better friend and no worse enemy than a United 
States Marine.''
    Across vast cultural divides, they were able to influence 
our Iraqi soldiers' abilities and willingness to fight. Through 
their efforts, some of our Iraq soldiers fought on the front 
lines of the battle of Fallujah, while others conducted 
independent security operations throughout al-Anbar province.
    Our successes were based on a comprehensive community 
approach. We did not just work with the Iraq soldiers. We 
worked with their tribal leaders, with their families, and even 
with their religious leaders.
    As our eyes, ears and voice on the ground, our translators 
were critical to this approach. They bridged vast ethnic and 
language divides, while providing the guidance we needed to be 
able to operate across complex cultural terrain.
    The first time I worked with my translator, Musa--I have 
changed his name for his protection--was during a meeting with 
some local sheiks. At the time, I had very little experience 
working with interpreters, maybe a one-hour or two-hour course 
at Camp Pendleton.
    The sheiks were from a generation unspoiled by Saddam's 
regime. In many ways, they were older, educated, dignified, and 
cared deeply for their constituents.
    In many ways they were like the Senators on this panel and, 
like today, I was pretty nervous speaking to them. I could not 
figure out how to eat without using my left hand, and I kept 
apologizing for crossing my legs and inadvertently showing them 
the bottom of my feet.
    Musa, my translator, was monopolizing the conversation, and 
I did not speak any Arabic, so I was sort of left in the dark 
and could not understand what was being said. I reminded him of 
his job and that he should only translate my words. What ensued 
was the next 5 minutes of very awkward silence.
    I asked Musa why the sheiks were not saying anything. 
``Well, they are waiting for their host--that is you, sir--to 
make proper introductions and give the blessing'', to which I 
whispered to Musa, ``But Musa, I do not know the blessings or 
how to give proper introductions.'' Without our translators, we 
are deaf and dumb. Without them we cannot speak, we cannot 
listen, we cannot understand.
    In my own experience, I believe their service has even 
saved lives. Though my platoon was hit by IEDs and attacked 
outside the town we lived in, we were never attacked in the 
town we called ``home.''
    A number of times we even drove or stood on top of IEDs 
that were detonated minutes after our departure against other 
U.S. military units. I am convinced that we were never attacked 
because of the relationships we had established with local 
leaders and their constituents, and that these relationships 
cannot have been established without our interpreters.
    Musa's service to our Nation came at a high cost to him and 
to his family. He first started working with the U.S. military, 
along with two of his daughters, in 2003. When the U.S. embassy 
was opened, Musa sent his daughter to work for them while Musa 
continued to work alongside front-line combat units.
    Soon, however, men dressed in black came to his home to 
warn him that they knew his daughter was working for the U.S. 
military. They firmly recommended that she stop, and remarked 
that her name had been posted at the local mosque. In the 
middle of the night, Musa and his family packed their 
belongings and moved out of their home to Baghdad.
    During our time working together in Iraq, I witnessed 
Musa's extraordinary service and sacrifice. Because of their 
importance, interpreters have become lucrative targets for the 
enemy. There was a price placed on his head. He was even 
threatened by some of the Iraqi military leaders for not 
helping them extort local contractors.
    He was by my side for over a week of high-intensity combat 
operations in the city of Fallujah, often placing himself in 
great danger to yell into houses to evacuate innocent civilians 
caught in the crossfire. He comforted other civilians we came 
across, and often interrogated insurgents that we had captured.
    I would like to close by saying that as our connection to 
the hearts and minds of our Iraqi soldiers and of local leaders 
and their constituents, Musa placed himself and his family at 
great risk. In Iraq, Musa entered the ranks of the proud few 
who have worn our Nation's uniform in combat. He wore the 
Marine Corps uniform in combat. Despite this service, Musa and 
his family have now become refugees.
    Senator Kennedy. Just on that point, then we will move on 
with the panel, they have become refugees. As I understand it, 
you have been in touch with them, have you not?
    Captain Iscol. Yes, sir. That is correct.
    Senator Kennedy. And you have been working continuously to 
try and expedite their asylum here in the United States. Is 
that correct?
    Captain Iscol. That is correct, sir.
    Senator Kennedy. Well, it certainly seems to be a very 
powerful and convincing case that you make.
    Let me just ask you this. There were instances where you 
had some translators that did not make the grade. Is that 
correct?
    Captain Iscol. That is absolutely correct.
    Senator Kennedy. I think, so we have the record complete, 
you might mention a couple of the incidents that you had.
    Captain Iscol. Yes, sir. I had approximately five 
translators working with me during my time in Iraq. Two of 
them, we actually had to eventually detain. One was exploiting 
his position to extort local contractors. Basically, while we 
were in the process of negotiations, he would request 10 
percent or however much of a cut to make their case to me. 
Another one, we received information that he was working with 
insurgents.
    Senator Kennedy. All right.
    But certainly Musa and the others that you had, you felt 
had been loyal to you and the Marines, and to your mission?
    Captain Iscol. Yes, sir. I mean, Musa's service and the 
other ones were absolutely honorable. One was wounded in 
combat. Musa never failed to be by my side, even in some pretty 
precarious positions.
    Senator Kennedy. Thank you very much.
    Ms. Ramaci-Vincent, we are so appreciative of your being 
here. You have a heart-rending story and we admire your 
extraordinary courage for keeping after, I am sure, your 
husband's memory and carrying forward, certainly, his 
courageous life. We are very grateful to you.

 STATEMENT OF LISA RAMACI-VINCENT, EXECUTIVE DIRECTOR, STEVEN 
             VINCENT FOUNDATION, NEW YORK, NEW YORK

    Ms. Ramaci-Vincent. Thank you, Ranking Member Specter, 
Senator Kennedy. Thank you for the honor of being able to come 
before you today. I am the widow of Steven Vincent, the 
journalist who was kidnapped and murdered in Basra, Iraq in 
2005. For the last 13 months, I have been trying to get his 
translator, Nour, into the United States.
    Two days prior to his death, Steven broke the now-familiar 
story in the Washington Times of how the Iraqi police force was 
being systematically infiltrated by Iranian-backed 
fundamentalists and Shi'ite militia men loyal to Muktada Al-
Sadr rather than to the central government.
    He wrote of the death squads in police vehicles who roamed 
the streets, snatching their victims and murdering them with 
impunity. Then one came for him. When it did so, Nour bravely 
stood by him as five men in police uniforms wrestled him into 
the truck that was going to take him to his death. They had no 
interest whatsoever in her.
    They repeatedly pushed her away, told her to leave, but she 
refused to abandon Steven. She kept inserting herself into the 
struggle until they took her as well. For all she knew, she was 
going to be killed, yet she did not hesitate for a moment, this 
tiny, 5-foot-tall woman, to try and protect the man who had 
hired her to be his guide and who had become her friend.
    They were bound, gagged, beaten, held for hours, driven to 
the edge of town, set free, told to run, and shot from behind 
and close range. Steven, in a final act of God's mercy, died 
instantly. Nour was hit three times, but survived, winding up 
in the green zone for medical treatment, where she was held 
incommunicado by the Americans for 3 months.
    During that time she was repeatedly interrogated, treated 
as if she were a co-conspirator of the killers, mentally and 
emotionally bullied, threatened, told she would never receive a 
visa to come to this country.
    And when we decided she had nothing left to offer and was 
medically fit enough, we gave her $2,000 and threw her out into 
Baghdad's red zone alone, where she knew no one, had no family, 
no job, no resources, nowhere to turn.
    Luckily, she was able to contact me and I was able to get 
her out of Iraq into temporary safety. I will never be able to 
fully repay Nour the debt that I owe to her. Not only did she 
help Steven in the months they worked together by lining up 
interviews, arranging for him to meet a broad cross-section of 
Basra's secular and religious societies, translating when 
necessary, going into places and situations that terrified her, 
but doing so anyway because this is what her friend wanted, 
working with him 7 days a week to get the stories he was trying 
to uncover, but she literally took a bullet for him--three as a 
matter of fact--and in the final dreadful hours of his life, 
when Steven would have known beyond mere knowing that he was 
going to die violently, he also knew he was not alone with his 
executioners. A friend was there with him, someone who cared 
for him and was voluntarily sharing his terror and his pain.
    As I mentioned earlier, I have spent the last year trying 
to get her into America. I have dealt with officials at the 
Baghdad embassy and the State Department. I have filled out 
forms, made countless calls, sent innumerable e-mails.
    I have pledged to stand financial security for her. I have 
gotten a promise from the U.N. Bureau Chief at al Arabiyah that 
he will hire her when, and if, she ever gets here. Each path I 
have gone down has proven fruitless. I have been told that she 
does not qualify for refugee or asylum status because Iraq is 
now a democracy, so there is no reason she should need to flee.
    I spent months working with embassy people who told me they 
were extremely touched by her plight and would move heaven and 
earth to see she got special treatment, and who wound up, in 
the end, telling me that she needed to go to Amman to apply for 
a visa just like every other Iraqi.
    I was told our government was no longer accepting Iraq's S 
passports because supposedly there are so many forgeries, it is 
impossible to know who is really holding them, so we will not 
take any of them.
    The embassy in Amman is no longer accepting applications 
from Iraqis. The Jordanian government is beginning to crack 
down and deport them. Egypt is now demanding that, before they 
come in, they get a letter of invitation from a certain 
government official in a certain department. The noose is 
tightening, and in the middle, Nour, pro-democracy, pro-
America, sits waiting.
    So I end with a request that you attempt to change this 
most misguided of policies. Please help those who helped us, 
who still see this country as the shining city on the hill, who 
yearn to come here and raise their families in an atmosphere of 
freedom, peace and safety.
    And please, let me help the woman who helped Steven, and in 
so doing, greatly aided me by being with him in his final 
moments. Thank you.
    Senator Kennedy. Very powerful.
    [The prepared statement of Ms. Ramaci-Vincent appears as a 
submission for the record.]
    Senator Kennedy. Ken Bacon?

  STATEMENT OF KEN BACON, PRESIDENT, REFUGEES INTERNATIONAL, 
                         WASHINGTON, DC

    Mr. Bacon. Thank you very much. Thank you and Senator 
Specter for holding these hearings. You have heard these 
personal stories, enormously compelling and enormously 
gripping. There are hundreds of stories like this, obviously, 
but I want to focus on the broader issue, again, because these 
stories add up to a growing crisis.
    Right now, because of violence in Iraq, large numbers of 
refugees are running for their lives. The U.N. High 
Commissioner for Refugees estimates that there are 1.7
    million internally displaced, and about 2 million who have 
become refugees in other countries.
    But this flow is building rapidly. One thousand three 
hundred people a day in Iraq are leaving their homes to flee 
for safety elsewhere in Iraq, and 100,000 people a month are 
leaving Iraq to go to other countries, mainly now to Syria and 
to Jordan.
    So the figures are not static. There is a rising tide of 
people trying to get out of Iraq. Syria and Jordan are 
absorbing the most Iraqi refugees. Each country is hosting 
about 750,000, maybe as many as a million in Syria.
    Other Iraqis are finding refuge throughout the Middle East. 
Lisa mentioned trying to get into Egypt and the difficulties of 
getting into Egypt, but Iraqis are trying to get into Lebanon, 
Yemen, and Turkey as well.
    Syria and Jordan have been very gracious hosts, but the 
refugee influx is straining their economies. The host countries 
need help and, increasingly, refugees themselves need direct 
assistance.
    The U.N. High Commissioner for Refugees reports that some 
Iraqi women are resorting to prostitution to support their 
families, and child labor is becoming an increasing problem 
among the refugees because they are so desperate to find 
income.
    Today, the Iraqi refugees are primarily a regional 
challenge, but that will not last long either. As the numbers 
grow, Iraqis are trying to leave the Middle East and move to 
Europe or to the United States. In fact, today's New York Times 
highlights the growing number of Iraqis moving to Sweden.
    Most Iraqis do not expect to return home, unlike many 
refugees. Even a senior Iraqi foreign service officer working 
at the Iraqi embassy in Lebanon told my colleagues at Refugees 
International, ``Why should I go back? I watch the news.''
    The violence in Iraq is both extreme and indiscriminate. 
Many are fleeing to escape sectarian violence that is producing 
de facto ethnic cleansing. Both Sunni and Shi'a are leaving 
mixed neighborhoods because they no longer feel safe outside of 
their own religious communities.
    Christians are leaving as well, and the Chaldean community, 
one of the oldest Christian sects, is rapidly diminishing. John 
spoke about that compellingly in his testimony.
    Two groups are particularly vulnerable. You have heard 
extensively about one, people who have worked for the United 
States or for other western employers. The second group that is 
vulnerable is Palestinians.
    Palestinians received special treatment from Saddam Hussein 
and, therefore, they are regarded with anger, suspicion, or 
hostility by many in Iraq. There are about 15,000 Palestinians 
still in Iraq and they are one of the most vulnerable groups.
    We just issued a report, Refugees International, 
recommending that members of these most vulnerable groups, 
those who assisted the United States and Palestinians, receive 
priority consideration for resettlement in third countries. I 
ask that a copy of that report be included in the record.
    Senator Kennedy. It will be so included.
    Mr. Bacon. Thank you.
    Most of the Iraqis who have left the country are middle 
class. They had to have means to reach the border and get out. 
Neither Syria nor Jordan, which house the largest refugee 
populations, has signed the 1951 Refugee Convention, so people 
find it difficult to get refugee status there.
    They generally enter the host country as tourists, business 
people, or guests, arriving in Syria with three-month visas, 
and in Jordan with authority to stay for 6 months.
    Many arrive in a state of shock. One Iraqi told my 
colleagues that ``my son is more shocked by the sight of dead 
dogs than of dead people.'' Syria and Jordan have been very 
generous to refugees and deserve international recognition for 
accepting them in large numbers, but the burdens of the large 
refugee population are increasingly straining housing, schools, 
hospitals, and social services.
    Jordan has tightened its borders since the bombings in 
Amman in November of 2005, and it is particularly difficult for 
Iraqi men between the ages of 18 and 35 to enter. Deportations 
are becoming more common. Syria, which used to grant free 
health care to refugees, has started to charge. In both 
countries, refugees find it very difficult to get jobs.
    As the refugees exhaust their resources, many need food, 
shelter, and other assistance, but the largely urban refugee 
populations are difficult to reach, particularly since many 
refugees are reluctant to register with the U.N. High 
Commissioner or local authorities as refugees for fear of 
deportation.
    There are encouraging signs that the world is beginning to 
respond to the growing Iraqi refugee problem, and this hearing 
is one of those signs. Until now, however, the reaction has 
been slow and inadequate. Last year, for instance, the U.N. 
High Commissioner for Refugees' budget for Iraqi refugees in 
Syria was $700,000--less than $1 per refugee. The U.S. has a 
special obligation to help since the violence in Iraq and the 
growing displacement comes in the aftermath of our invasion and 
occupation. Translators and others who had to flee for their 
lives after working for the U.S. deserve an opportunity to be 
resettled in the U.S. or other countries so they can live in 
safety. The State Department, along with the UNHCR, is working 
on programs to protect the most vulnerable, but these programs 
need fast and adequate funding so they can be put into place 
immediately.
    UNHCR has plans to spend $60 million on displaced Iraqis 
this year, about three times what it spent last year, and it 
has developed a comprehensive regional program. However, U.N. 
agencies have not mobilized to provide food, shelter, medical 
care, and educational support for an increasingly stressed 
refugee community that is taxing the resources of host 
countries. The U.S. Government should fully support the UNHCR 
budget. Normally, we contribute 25 percent to their budget. 
Because of our role in the conflict, I think we should consider 
doubling that contribution for Iraqi refugees because fast 
action is what is going to save more lives.
    The host countries, particularly Jordan and Syria, need 
multilateral and bilateral assistance in shouldering the burden 
of the refugee population. This means programs to resettle the 
most vulnerable refugees to third countries and help in sharing 
the costs of those who stay. The worst outcome, the very worst 
outcome now, would be to see Syria and Jordan close their 
borders to Iraqis, removing a safety valve that is currently 
saving hundreds of thousands of lives. ``Iraqis who are unable 
to flee the country are now in a queue waiting their turn to 
die,'' one Iraqi told my colleagues.
    The U.S. and Iraq are finding it difficult to stop the 
violence in Iraq. Until they do, the flood of refugees will 
continue. While we do not know how to stabilize Iraq now, we do 
know how to protect and support refugees. That is our 
obligation, and we should start now.
    Thank you.
    [The prepared statement of Mr. Bacon appears as a 
submission for the record.]
    Senator Kennedy. I would recognize Senator Specter to ask 
questions at this time.
    Senator Specter. Thank you, Mr. Chairman, for taking me out 
of order. When we start a hearing at 2, we expect it ordinarily 
to be over by 4. We have many meetings, and I have got a bunch 
of people stacked up in the reception area. So I appreciate 
Senator Kennedy allowing me to go first, and I will excuse 
myself for a few moments and then come back for the remaining 
witnesses.
    Thank you very much, Ms. Ramaci-Vincent, for sharing with 
us what happened to your husband and to Nour al-Khal. And thank 
you very much, Captain Iscol, for the specifics on what 
happened with your translator, Musa. They are extraordinary 
stories about what has happened in circumstances which are hard 
to understand how, with the kind of firsthand evidence that you 
brought, Ms. Ramaci-Vincent--
    Ms. Ramaci-Vincent. Please call me ``Lisa.''
    Senator Specter. Lisa. That is easier, with your 
permission.
    Ms. Ramaci-Vincent. Please do.
    Senator Specter.--that you could not get some immediate 
relief.
    Ms. Ramaci-Vincent. No.
    Senator Specter. When you testified they told you that Iraq 
was now a democracy so there was no need for refugee status, 
you obviously told them that Iraq was not much of a democracy.
    Ms. Ramaci-Vincent. When I stopped laughing, yes, I did.
    Senator Specter. If you were to judge the need for refugee 
status by the status of Iraq as a democracy, it would be at 
about 100 percent.
    Ms. Ramaci-Vincent. To be honest, the impression that I got 
from the person who told this to me was that certain elements 
in the Government are not willing to acknowledge the fact that 
Iraq is a titular democracy but not necessarily a working one, 
and that by allowing more refugees into the country, it would 
be some kind of admission of failure on the part of the 
American Government to have a fully functioning democracy to 
protect the citizens of Iraq.
    Senator Specter. Are you saying that is the attitude of the 
American Government not to want to recognize that Iraq is not a 
democracy and there is a need for refugee status?
    Ms. Ramaci-Vincent. No. Elements in the Government, not the 
American Government as a whole.
    Senator Specter. Well, any elements are elements too many.
    Captain, how do you account for your inability, your status 
as a Marine officer, and the firsthand testimony you give on 
the scene that it is not sufficiently persuasive to get refugee 
status? The thought crossed my mind that if people like Lisa 
and you, Captain, cannot get the job done, it is a sad day for 
everybody.
    Captain Iscol. Yes, sir. We have had a number of successes 
lately, within the past week--
    Senator Specter. How about with--
    [Laughter.]
    Senator Specter. You still think there is nothing like a 
Senate hearing.
    Captain Iscol. Yes, sir. However, at the same time, it is a 
very complicated process. And as a Marine officer, I am not 
well versed in the ways that our National Government screens 
immigrants and tries to bring immigrants over here. So it has 
been a very difficult process for me personally. But we have 
been able to grant him refugee status, and the next step is his 
case should be referred to the United States State Department.
    Senator Specter. Mr. Bacon, we thank you for the service 
that you have rendered in Government in the past and now in 
your capacity as head of a refugee organization.
    I note in an article you wrote for the Washington Post, 
``Syria is the last country in the Middle East to leave its 
borders open to Iraqi refugees.'' As I said a little earlier in 
this hearing, I had a chance to talk to Syrian President Bashir 
Assad who told me about 1 million refugees coming into Syria, 
and they received them but they are obviously an enormous 
problem for Syria.
    Is there any conceivable justification for the United 
States not having a dialog with Syria at least on the question 
of how to deal with these Iraqi refugees?
    Mr. Bacon. I believe there is no excuse for not talking to 
Syria about this, and I was glad to hear of your meetings with 
President Bashir Assad because I do think that actually, with 
all the problems that we have with Syria, talking to them on a 
humanitarian issue such as refugees is almost a safe haven to 
begin discussions.
    You are in a much better position than I am to maybe 
suggest to the U.S. Government that they consider doing that, 
and I hope you have taken that message to Secretary Rice.
    Senator Specter. Well, I have and I will, and I shall 
persist in it. I have been an advocate of talking to our 
adversaries forever. You keep your friends close, as the old 
saying goes, and your enemies closer. But not to talk to our 
adversaries--we talked to the Soviet Union when they were the 
evil empire. We talked to China, utilizing slave labor. We have 
to pursue it, and I think this refugee issue is a good opening.
    One statement I want to pursue with you and question you on 
is when you said that the United States has a ``special 
obligation'' since it was our military action which has caused 
the problem.
    Are we under an obligation? Did we, arguably, do the wrong 
thing to give us some special obligation? Or did we act on the 
best intelligence we had and now find a terrible situation and 
ought to do our best to accommodate the refugees, work with 
other countries in it, but not to categorize it as a ``special 
obligation'' as if we were at fault here or the causative 
factor?
    Mr. Bacon. Well, I did not mean to suggest fault, although 
I certainly have views about what we did. But I am referring 
specifically to the type of cases that Captain Iscol and Lisa 
focused on and that John and Sami focused on earlier. There is 
a large group of Iraqis who have risked their lives to support 
the United States.
    They have done this sometimes out of a commitment to what 
we have done--to helping us bring democracy to Iraq. I am sure 
some have done it to earn an income in a country with very high 
unemployment.
    But the fact of the matter is that the people are 
sacrificing their lives to help the United States, and if the 
U.S. turns its back on those people, I think that we are 
breaking an obligation we have to them--not a written 
obligation perhaps, not a contractual obligation, but a moral 
obligation.
    The translator that Captain Iscol talked about has been 
granted refugee status now by the U.N. High Commissioner for 
Refugees. Next, that that translator has to go through a series 
of steps to see if he can be resettled into the United States 
where he already has a daughter living.
    But there are much simpler ways to do this, and Senator 
Kennedy earlier mentioned a parole program. We could facilitate 
the refugee status determination for groups of people who are 
at risk and had to leave the country because of their 
association with the United States. And those people I think do 
deserve a greater measure of protection than they are getting 
from us now.
    Senator Specter. Well, one way to do it would be to have a 
million hearings, and that would bring a million people out, 
and a million seven hundred thousand hearings would bring a 
million seven hundred thousand people out. But one at a time is 
obviously not the answer.
    I am going to step out for a few moments, but I will be in 
the anteroom and will be back for the next panel. Thank you all 
very much.
    Senator Kennedy. Thank you. Thanks very much, and thank 
you, Ken Bacon, for sort of summing up really what the overall 
and central challenge is.
    I will ask a couple quick questions. One is about sort of a 
regional kind of approach in terms of dealing with this 
humanitarian challenge. It seems to me that we are going to 
hear a little bit more from the High Commissioner.
    I have listened to you speak about this in a very powerful 
way, and I want to recognize at this time Kristele Younes and 
Sean Garcia. Do you want to just raise your hands? They are 
from Refugees International, and if our friends in the press or 
others that are listening to this want to hear as well what is 
going on over there, they ought to be in touch with these two 
extraordinary individuals who have spent a great deal of time 
in the region and the area interviewing people. They have been 
enormously helpful to our Committee, and we thank them.
    Mr. Bacon, you have summarized very, very well--and I do 
not think you can improve on it--sort of the moral 
responsibility or obligation we have to individuals that have 
identified themselves with the United States and have put at 
serious risk their lives themselves, and their children. We 
have a responsibility to them.
    Maybe you could just talk about this group of people in the 
region and in the area. What happens to all of these 
individuals? Basically, probably fairly well skilled 
individuals have enough resources maybe to escape the country, 
can stay in these nations, run out of resources, and are 
getting desperate, threatened with deportation from those 
countries.
    If we are talking about stability in that region, as we 
know, there are a lot of complexities and different pressures. 
What is this whole group that is loose in that whole region, 
what will that mean in terms of overall stability and security? 
The most powerful statement is the one you made earlier in 
terms of the humanitarian obligation.
    But if we are looking at a broader kind of context, what 
does it mean, as someone who knows this region, knows the area, 
knows the flow of people, knows the pressures and the diversity 
in that region?
    Mr. Bacon. Well, I think there are only three solutions for 
most refugee problems. The first is that people can go home. 
Right now, that does not seem to be possible. The second is 
that they integrate into the country of first asylum, and that 
would be Syria or Jordan in this case. That is basically what 
has happened.
    And the third solution is resettlement to a third country, 
such as the United States or Sweden or Australia. That is a 
very durable solution, but it can only work for small numbers 
of people, and I think Senator Specter was alluding to that, 
that we cannot resettle right now millions of Iraqis into the 
United States or other countries.
    So that really means we have to focus on ways to 
accommodate them in the countries nearby--Egypt, Syria, Jordan, 
Lebanon, et cetera. And that is why I think we have to look at 
ways--a regional conference would be a good way to do this--to 
get them more resources and more help, more help to the 
countries that are hosting them so they are not such a burden. 
Otherwise, they will be rejected, and there will be no safety 
valve whatsoever.
    So the most reasonable solution right now is to pump 
resources into the countries that are taking care of the 
refugees so they can stay there until there is enough stability 
in Iraq for them to go home or until they can negotiate ways to 
get out to third countries for resettlement.
    Senator Kennedy. Well, thank you very much. Captain Iscol, 
where are you assigned now? And how long were you in Iraq?
    Captain Iscol. The last time I returned from Iraq was 
January of 2005, and during that deployment I was there for 8 
months.
    Senator Kennedy. Are you scheduled to return there anytime 
soon?
    Captain Iscol. No, sir. I will be deploying elsewhere.
    Senator Kennedy. Well, we thank you very much.
    I will recognize Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman, and 
thank you all for your testimony.
    We have multiple problems here with the refugees. I agree 
that the refugees that are currently in neighboring countries, 
we have an opportunity to help with our refugee programs to 
assist those countries to make it easier for those individuals 
to remain in those countries because there is really no other 
option at this particular moment.
    So it seems to me that an international conference or the 
United States being more aggressive to help these countries 
with the refugees is going to be the best short-term solution 
to this problem.
    In regards to those who are not really displaced in Iraq 
but are in fear because of their cooperation with the United 
States, I think the suggestion that has been made about having 
our immigration officials interact makes a great deal of sense, 
because the major reason that will be used to delay or prevent 
an individual, an Iraqi who has helped us, in fear of his life, 
for his family and himself, in coming to the United States 
would be the security checks and how long that takes.
    It seems to me what has happened with those that have been 
successful in coming to the United States is that they have 
escaped Iraq and had the resources somehow to get into our 
system and get through our system and be placed in the United 
States.
    But if there were services in Iraq, it seems to me it makes 
it a little bit easier and the security issues would be a lot 
faster than if we go through the procedures that have been used 
to date.
    But I want to concentrate on the third group--that is, 
those that are in Iraq and are displaced--as to what 
suggestions you might have for U.S. policy to deal with the 
large numbers that are currently displaced within Iraq itself.
    Mr. Bacon. Thank you for that question. They basically have 
three problems: first, is lack of shelter; the second is lack 
of jobs; and the third is insecurity. They are leaving where 
they are for more secure environments.
    Many are going north into the Kurdish areas, which are more 
secure, and those would be places where it is easier to provide 
humanitarian services because they are secure.
    And I think the UNHCR representative will probably talk 
about this, but it has been very difficult for international 
agencies to get services to many of the people who are 
displaced internally because it is insecure.
    So there is an agency called the International Organization 
of Migration that has been trying to work with a number of the 
internally displaced, and their biggest problem is that they do 
not have good working NGO's frequently in the country because 
it is so insecure. So that has been a problem.
    Assistant Secretary Sauerbrey addressed this. This is 
something that does concern the U.S. But until the security 
improves, I think it is going to be difficult to meet the needs 
of many of these people.
    Senator Cardin. Is it likely that a large number will 
return to their homes?
    Mr. Bacon. I think most would like to return to their homes 
when they can, but to the extent that this is de facto ethnic 
cleansing--the mixed Shi'a-Sunni neighborhoods, for instance, 
are unraveling and becoming all Sunni or all Shi'a--it may take 
some time for them to be able to get back.
    Senator Cardin. And what role do you see the United States 
constructively playing here?
    Mr. Bacon. Well, the major role is to help the Iraqis bring 
security to their country, and as I understand it, that is what 
our policy is now.
    Second, I think we have to do more to improve services and 
aid--whether it is infrastructure, education, health care--for 
the Iraqis in the country, and I understand we are trying to do 
that.
    And the third is the type of solution that Senator Kennedy 
has mentioned, which is giving people a way to--those who want 
to leave or have to leave the country and become official 
refugees and resettle, make it easier for them to do this 
within Iraq. And that would involve getting the Department of 
Homeland Security there so they can do security interviews, et 
cetera, with these people.
    But this is only a small solution. Resettlement is not the 
major solution. The major solution is calming things down so 
people can go home.
    Senator Cardin. But it seems like some of our policies are 
moving in the opposite direction. De facto ethnic cleansing is 
horrible. But to reintroduce people back together under the 
current climate is not an option.
    And I am not aware of our policies trying to reconnect 
communities with diversity back together. It seems like we 
might be moving in the other direction, trying to bring calm by 
separation rather than bringing communities back.
    Mr. Bacon. I guess calm by separation would be better than 
chaos, but it is not as good as reuniting communities.
    Senator Cardin. I agree with you completely. I understand 
your first point about trying to bring calm and peace to Iraq. 
We all support that. I just do not know what impact it has on 
the refugees--the displaced people within Iraq.
    Mr. Bacon. Well, the displaced people will not return to 
their original homes as long as they feel threatened, just as 
refugees will not return from Jordan or Syria as long as they 
feel it is unsafe to live in Iraq. So the key to helping people 
get back is to find some way to make the area more secure.
    This is clearly not easy to do. Everybody wishes that the 
country were safe and secure. But it is not, and it does not 
appear to be heading in that direction anytime soon.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kennedy. Thank you all very much. We appreciate it. 
We will work on the overall issue, but in particular, the 
situations that you brought to our attention and hopefully get 
some positive results. Thank you very, very much.
    Senator Kennedy. We have a final witness, and I will ask 
Michel Gabaudan, who served as the U.N. High Commissioner 
Regional Representative for the United States and Caribbean 
since September 2006.
    His distinguished career with the agency spans more than 25 
years, with service in Africa, Asia, Latin America, and 
Australia. He was trained as a medical doctor, spent a decade 
working in Guyana, Zambia, Brazil, London, and Yemen, before 
joining the United Nations High Commissioner in Thailand. His 
U.N. career took him to Pakistan, Cameroon, and Geneva. He has 
been the Regional Representative in Mexico, Australia, and 
Beijing. We are very, very grateful to him for being here.
    We would ask you to proceed. I know you have been here for 
a good part of these hearings, so I think you have got a pretty 
good sense of what we are looking at in terms of the policy 
issues and questions. I have had a good chance to go through 
your excellent testimony here, and if you want to summarize it 
and highlight it, give us your best judgment, we would be very, 
very grateful.

 STATEMENT OF MICHEL GABAUDAN, REGIONAL REPRESENTATIVE FOR THE 
UNITED STATES AND CARIBBEAN, OFFICE OF THE UNITED NATIONS HIGH 
         COMMISSIONER FOR REFUGEES, GENEVA, SWITZERLAND

    Mr. Gabaudan. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the committee, I would like to 
express UNHCR's appreciation for the opportunity to share with 
you our concerns about Iraqi displacement, one of the most 
serious humanitarian crises UNHCR faces today. Over 3.5 million 
Iraqis--that is, one out of every eight persons--are either 
internally displaced or have fled the country.
    Given the escalating violence in Iraq and the growing 
number of displaced, UNHCR has conducted a fundamental review 
of its Iraq program. Whereas, before, we had focused on refugee 
returns and only modest assistance in neighboring host 
countries, we are now increasing our presence in and support 
for host countries to promote great protection and assistance.
    The protection situation in the region is quite complex. 
Host countries have been generous in receiving arriving Iraqis, 
effectively tolerating their presence through limited periods 
of stay, although this is done without a legal framework. We 
are, however, increasingly concerned about reports of 
deportations and denial of access at the borders, which 
reflects the strain that large refugee populations have placed 
on host societies.
    Living conditions for refugees who remain in host countries 
are also deteriorating. Families have either depleted the 
resources that they brought with them or lacked resources to 
begin with.
    In this context, some women may be vulnerable to forced 
prostitution and young people to child labor. Some 30 percent 
of Iraqi children are not attending school, and access to 
health care is seriously limited.
    UNHCR is encouraging host countries to strengthen 
protection by ensuring that borders are kept open and forced 
returns are halted. We will also conduct a comprehensive needs 
assessment with our implementing partners and plan to enhance 
our capacity to register Iraqis so that the most vulnerable can 
be identified and their protection and assistance needs 
addressed.
    Such assistance must support the national infrastructure 
for providing services and be coordinated through community 
networks as the population in question is largely urban based.
    Resettlement will play a critical role as a protection tool 
for certain vulnerable individuals or groups. It can also serve 
as an element of burden sharing by the international community.
    A clear set of criteria and procedures for Iraqi 
resettlement are being defined that will identify certain 
categories of vulnerability, such as survivors of violence and 
torture, women at risk, unaccompanied children and individuals 
with serious medical problems.
    Other categories will respond to specific protection 
concerns, such as individuals and members of minority groups 
who have been targeted in Iraq due to their religious or ethnic 
background or because of their association with foreign or 
international entities.
    UNHCR has initially projected a minimum of just over 13,000 
individuals in need of resettlement. However, it can be 
expected that these numbers will increase, and therefore we 
already plan to enhance our capacity to eventually be able to 
refer up to 20,000 individuals in 2007.
    We welcome indeed the potential for increases U.S. 
resettlement of Iraqi refugees. For an effective program, it 
will be essential that all parties have a shared understanding 
of the criteria to be applied and that refugees approved for 
resettlement depart in a timely manner.
    We would note that from 2003 through 2006, UNHCR was 
compelled to direct most Iraqi referrals to other resettlement 
countries because many departures were long delayed and in some 
cases approved cases were actually never able to depart to the 
United States.
    As we work with U.S. authorities to increase Iraqi 
resettlement, we trust that in the future these obstacles can 
be avoided and that the U.S. material support and related bars 
will not pose new barriers to the resettlement of Iraqi 
refugees.
    I would like to turn very briefly to the situation of Iraqi 
internally displaced persons and non-Iraqi refugees inside 
Iraq. Despite the fact that our ability to deliver necessary 
services is severely hampered by security considerations and a 
resulting lack of adequate staffing, we will seek to mitigate 
the increasingly harsh conditions faced by Iraqi IDPs through 
delivery of shelter, water and sanitation, nutrition, basic 
non-food items, and support to host communities.
    We are also extremely concerned about the approximately 
45,000 non-Iraqi refugees inside Iraq, many of whom are in 
urgent need of resettlement or humanitarian evacuation.
    Finally, Mr. Chairman, UNHCR is working to promote the 
convening of an international conference on Iraqi displacement, 
hopefully in the first half of 2007. This conference would 
highlight the needs of displaced Iraqis and facilitate dialog 
between countries affected by the displacement and those 
willing to share the burden.
    The enhanced protection and assistance efforts which I just 
outlined are virtually all contingent on resources. UNHCR has 
released a 2007 emergency appeal through which we are seeking a 
total of $60 million to cover our Iraq operation. We look 
forward to continued generosity from the United States at this 
very critical juncture.
    In closing, Mr. Chairman, I would like to thank you and 
members of the Subcommittee for your leadership in highlighting 
the critical protection needs of Iraqi refugees. We look 
forward to working with you in the days to come, and I would be 
happy to address any questions you might have.
    Thank you.
    [The prepared statement of Mr. Gabaudan appears as a 
submission for the record.]
    Senator Kennedy. Well, thank you very much, and we will put 
your full statement in the record. I went through it in some 
detail. It is very, very comprehensive and helpful and very 
constructive.
    The High Commissioner has put out the request for funding 
the refugees. Have you gotten a response from our Government 
that you can talk about?
    Mr. Gabaudan. Not yet, Senator. We have just issued the 
appeal. The appeal represents a doubling of what we had asked 
last year, but four times what we received. So it is already 
quite a quantum leap, and this is a first step.
    We will carry out a detailed needs assessment, which is 
something we have not done yet because of lack of sufficient 
staff in the field, and we have to see what comes out of this 
detailed assessment, which we will carry out with our 
implementing partners.
    Senator Kennedy. On these issues about the U.N. High 
Commissioner referring resettlement cases to the United States, 
I think there is a faster way, a more efficient way of doing 
it, and we brought that up with the Secretary. But do you see 
difficulties with this processing now by the High Commissioner, 
these cases?
    Mr. Gabaudan. Senator, we cannot carry out refugee status 
determination for the large numbers of people who are in Syria 
and Jordan, so we hope that by improving our registration and 
placing some of our registration centers more in the 
communities where people are, we can identify the 
vulnerabilities I have mentioned, and through this 
identification embark on a fast processing of people who would 
require resettlement.
    We have been asked by the administration to refer more 
cases than in the past, so there is definitely pressure on us 
from the administration to refer more cases.
    We are now negotiating how we are going to articulate our 
two programs. Our Director of Resettlement has been here. He is 
now in the Middle East. He is coming here next week, so we are 
in intense dialog with the government to see how we are going 
to operate.
    Senator Kennedy. Well, it seems you have got certainly a 
head start, and your help and assistance in this is valuable. 
But I think it is not absolutely essential and necessary in 
terms of developing this program. And I think hopefully the 
administration hears this.
    Are you monitoring now the borders for the possible 
rejection of Iraqi asylum seekers and the deportation of Iraqis 
from the countries in the region? We know that a number of the 
countries have closed their borders. We have heard this threat. 
Is this happening? Do you know? What can you tell us? Are you 
monitoring this at all? Can you monitor it? Have you monitored 
it?
    Mr. Gabaudan. Senator, the shortfall we had in our funding 
last year limited our presence in the field, and we had no 
permanent presence on the border. And some of the issues with 
deportation have been brought to us by NGO's, and we have taken 
that very seriously.
    So part of our plan for expansion next year includes more 
field officers so we can monitor the border. The High 
Commissioner will be in Jordan and Syria at the end of the 
month and early February, and that is certainly one of the 
issues he is going to raise with the governments there.
    Senator Kennedy. Well, this is for deploying protection 
officers at key crossing points from Iraq into Jordan and Syria 
and the other countries. But just on the information that you 
have at the present time, are people being deported from any of 
those countries back into Iraq that you know about?
    Mr. Gabaudan. There are deportations taking place. We are 
totally unable right now to tell you what is the rate or who is 
deported, what are the triggers that make that someone to be 
deported and someone not. This is something we have to analyze 
in more detail.
    Senator Kennedy. Well, that is a very sobering circumstance 
where individuals are fleeing with a high risk of facing death, 
as we have listened to today the examples of individuals and 
what we have all read about in terms of the newspapers and 
finding out that individuals going to these countries are now 
being effectively deported out of those countries. It adds a 
real sense of urgency, it seems to me, to make sure that we are 
going to understand that we have got a real humanitarian 
crisis. The extent of it is difficult to assess until we know 
the numbers, but just the fact that people are fleeing on the 
basis of the threat of their life and then being in a country 
and then told to get out of it, it is something that is 
enormously a matter of great concern.
    Let me ask you, just in this conference, maybe you could 
describe to us the value of having an international conference 
and then the importance of bilateralism. There is probably some 
responsibilities in terms of countries working bilaterally to 
try and deal with this issue and also some advantages of 
working regionally. Maybe you could talk about why both 
approaches are important.
    Mr. Gabaudan. Right. The idea of the international 
conference is to get the countries in the region to agree on 
certain basic criteria on which to recognize the importance of 
the crisis and the response that is required.
    And it will have to be handled with some care because the 
refugee world is still something that puts many of these 
governments into a tight corner, and so far they have tolerated 
people, as I was mentioning, without legal status, and they are 
not very keen for legal status to be applied.
    So I think we have to look for the best practical way to 
maintain protection space in these countries, and for that we 
need the different countries in the region to agree on basic 
criteria. We also need other countries in the region to also 
contribute in the burden sharing, whether it is financial or 
whether it is through some of the evacuations we have 
suggested, et cetera. So it is to try to build some consensus 
behind that.
    Obviously, the size of the problem that Syria and Jordan 
face will require that there are bilateral initiatives that 
help these countries to support the tremendous stress that the 
presence of refugees is creating on their services.
    That cannot just be responded to by the humanitarian 
programs, and we hope the conference would also be a channel to 
challenge some countries who are willing to help through their 
bilateral means to make sure that these countries do understand 
that they are not alone in facing the crisis.
    Senator Kennedy. Let me just finally ask you, do you get 
some indication of willingness in those countries in the area 
that they would welcome this opportunity to work with your 
agency or with other countries? Do you find that? Or are they 
saying that they do not need help and assistance? What are you 
finding? Or does it vary from country to country?
    Mr. Gabaudan. I think it varies from country to country, 
Senator. I do not have really the details, but I could come 
back to you on that on the very specifics.
    Senator Kennedy. Good. Well, as you find that out, the 
indication of the willingness of these countries, it would be 
helpful for us to know that.
    Senator Specter?
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Gabaudan, you say in your prepared testimony that you 
are looking to raise $60 million. How do you arrive at that 
figure? Is it sufficient given the scope, intensity, magnitude 
of the problem?
    Mr. Gabaudan. Well, it is a practical approach, Senator. As 
I mentioned, it is four times what we received in fresh 
contributions last year. Last year, the U.S. contributed about 
26 percent of our budget, but practically 50 percent of real 
contributions.
    Senator Specter. Four times what you had last year, but how 
many more times the intensity is the problem than it was last 
year?
    Mr. Gabaudan. Well, we want to address issues practically 
and with what we can deliver. A key--
    Senator Specter. Are you looking for contributions 
worldwide, from Japan, China, Germany, France, Great Britain?
    Mr. Gabaudan. We are certainly looking for contributions 
worldwide. They have not been very forthcoming in the past. We 
have better indications this year. In particular, the European 
Union has been in touch with us, and our Assistant High 
Commissioner has talked to them in detail. So we do hope we 
will have a better reaction this year.
    Senator Specter. I saw a headline in the paper that Sweden 
was a haven for Iraqi refugees. Are you familiar with that?
    Mr. Gabaudan. I am not familiar with the particular case of 
Sweden, Senator, but I know that in the first half of 2006, the 
number of Iraqi asylum seekers has doubled compared to what was 
the case last year in Europe. And they are now the top 
nationality seeking asylum in Europe.
    Senator Specter. Well, with the Europeans being willing to 
give asylum, that is a positive sign that they are trying to 
help out, and that ought to be explored for financial 
contributions.
    In your prepared testimony, Mr. Gabaudan, you say that, 
``In the coming months, UNHCR also hopes to convene an 
international conference on Iraqi displacement, possibly in 
collaboration with the Arab League and/or the Organization of 
Islamic Conference.'' Why only a hope? Why shouldn't UNHCR take 
the field and insist on an international conference?
    Mr. Gabaudan. Well, we certainly would like to take the 
lead in promoting the idea. We think it is important that there 
is some regional ownership, and that is why it is important to 
talk to regional bodies that would be able to persuade some of 
their members to join in the conference.
    Senator Specter. Well, the regional participation is 
obviously important, but the participation of the United States 
is indispensable, isn't it?
    Mr. Gabaudan. Oh, absolutely. The idea is not to limit the 
conference as strictly a regional issue. What we want is 
regional commitment to say we have an issue, we have to tackle 
that. That conference should be attended, in our view, by--
    Senator Specter. Well, let me make the suggestion that you 
transpose language of hope to language of insistence.
    Mr. Gabaudan. All right.
    Senator Specter. I do not think hope is going to get UNHCR 
very far. I do not know that insistence will get UNHCR very 
far, but it has a much better chance than hope. And then you 
have the situation about Syria, to its credit, being the last 
country which has its borders open to Iraqi refugees.
    This is a good occasion, it seems to me, for the UNHCR to 
weigh in with the United States and say, ``Participate in a 
conference.'' I think the United States would be hard put, Mr. 
Gabaudan, to decline to come to a meeting convened by the High 
Commissioner, regardless of who was present. Would Iran figure 
as one of the countries that you have in mind for participation 
on a regional basis?
    Mr. Gabaudan. Well, certainly all the countries affected by 
the displacement in the region--
    Senator Specter. You are giving me a ``yes.''
    Mr. Gabaudan. Yes.
    Senator Specter. All right. Well, it would be good to see 
that kind of international conference convened, good to see the 
countries involved, including Syria and Iran, there.
    Mr. Gabaudan. Yes.
    Senator Specter. And an invitation to the United States. I 
think it would be very hard for the United States to decline an 
invitation of that sort.
    Mr. Gabaudan, you heard the testimony of Ms. Lisa Ramaci-
Vincent and Captain Iscol, right? Any justification at all for 
the situations which they cite, not to have asylum granted for 
the individuals that they call to the attention of American 
officials?
    Mr. Gabaudan. Well, I cannot judge to what is happening 
inside Iraq, Senator, because inside Iraq we just deal with 
IDPs and we are not--our mandate does not allow us to take 
people outside their country of origin. But certainly the 
circumstances that these two testimonies have evidenced for me 
make it clear that these cases would fall within the categories 
that we should identify for the registration for further 
processing.
    Senator Specter. Do you think that it is true, as Lisa 
testified, that there are some people in the American enclave 
who do not want to admit there is a refugee problem, they want 
to say that Iraq is a democracy and, therefore, refugees do not 
need asylum? Would you think there is much of that kind of an 
inexplicable attitude?
    Mr. Gabaudan. I cannot comment upon that, Senator. The only 
thing I can tell you is that the Government has asked us to 
look more practically into referring cases to the U.S., which 
means there is, in my view, an official recognition that there 
is an issue that the Government is prepared to address.
    Senator Specter. Well, my time expired a few seconds ago. I 
want to thank Senator Kennedy for his op-ed and for his 
leadership in this field. He has been at it for a long time. 
And this is an oversight hearing with teeth. Not too many 
oversight hearings in Congress generally.
    The Judiciary Committee has had more than its share 
recently, but this is one with teeth. And I think that the 
testimony which has been given here today by Sami and John--I 
was about to say they put a face on the problem. They put a 
screen on the problem.
    And the testimony of the Captain and Lisa were really 
overpowering in the nature of the problem, and the United 
States is in the middle of this problem. I do not think that we 
are responsible for it. I think that we are not to blame for 
it.
    But certainly we have a major role to play, and I would 
like to see you expand that list of donor countries and set 
your sights a little higher. And get that international 
conference. I want to see all those countries there--Syria, 
Iran, and whoever else.
    Thank you very much, Mr. Chairman.
    Senator Kennedy. Well, thank you, Senator Specter, so much 
for your participation, interest, and long-time concern about 
the problems of refugees.
    Thank you very much to you, Mr. Gabaudan, for being here 
and for these comments. We want to work with you on these 
issues. We expect to do so.
    I am enormously grateful for all of our witnesses, and I, 
too, join in paying tribute to the courage and the bravery of 
John and Sami. These are individuals that represent tens of 
thousands of people that have worked with the United States, 
worked with the United States military, worked with the United 
States independent contractors, worked with members of the 
press from the West and because of this have been targeted.
    And I feel that we have a very, very important and strong 
obligation. It was so overpowering, the testimony about what 
the risks are for them. It is death in its most brutal form. 
And anyone who has been reading and following the newspapers or 
the television knows that this is very real.
    The whole issue about the humanitarian aspects of the Iraq 
war really have not gotten the focus and attention on the 
numbers. We know of the extraordinary bravery of young 
Americans, and we pay tribute to those soldiers every single 
day.
    We have 61 from Massachusetts who have lost their lives and 
over 3,023, I think it is, who have lost their lives from the 
United States. And the wounded, I have had the opportunity to 
visit Walter Reed on a number of different occasions, so we 
know this extraordinary burden that the families have 
experienced and what it has meant in terms of the financing, $8 
billion, $2 billion a week.
    Think of the total Pell grant program that helps struggling 
young people go to college of being $12 billion, $12.5 billion, 
and this being $2 billion a week. What we could do with those 
resources here, investing in people, it is an enormous human 
tragedy.
    But we are reminded today about what happens to our friends 
and allies who have been a part of this whole effort, and we 
have real responsibility. It reminds me in a certain way of 
what we were facing in Vietnam. We saw the whole movement of 
individuals and refugees around those countries.
    We had free-fire zones where firing these--dropping bombs 
and firing these enormous explosives into these areas where the 
civilian populations were gathered. And we had a real 
humanitarian crisis in that. It took a long time for this 
country to recognize it.
    So we are in this Committee going to follow this very, very 
closely, and we are grateful for all of those who have 
testified. We have great admiration for those who have been 
helpful, the law firms, the students. This is the defining 
issue, I think, for our country and our society.
    We have many defining issues, but certainly this is 
certainly one of them. And we hear a great deal about surges 
these days. It seems to me we need a real surge in humanitarian 
concern and attention and focus for those people whose lives 
are at risk. We need to have a surge of concern for them as 
well.
    I will include in the record the documents. I want to make 
a special note of the Chaldean Federation of America. They have 
a statement, a comment here. Senator Levin has spoken to me 
about this.
    And the record will remain open for 1 week, Tuesday, the 
23rd. And the Committee stands in recess.
    [Whereupon, at 5:01 p.m., the committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T3563.001

[GRAPHIC] [TIFF OMITTED] T3563.002

[GRAPHIC] [TIFF OMITTED] T3563.003

[GRAPHIC] [TIFF OMITTED] T3563.004

[GRAPHIC] [TIFF OMITTED] T3563.005

[GRAPHIC] [TIFF OMITTED] T3563.006

[GRAPHIC] [TIFF OMITTED] T3563.007

[GRAPHIC] [TIFF OMITTED] T3563.008

[GRAPHIC] [TIFF OMITTED] T3563.009

[GRAPHIC] [TIFF OMITTED] T3563.010

[GRAPHIC] [TIFF OMITTED] T3563.011

[GRAPHIC] [TIFF OMITTED] T3563.012

[GRAPHIC] [TIFF OMITTED] T3563.013

[GRAPHIC] [TIFF OMITTED] T3563.014

[GRAPHIC] [TIFF OMITTED] T3563.015

[GRAPHIC] [TIFF OMITTED] T3563.016

[GRAPHIC] [TIFF OMITTED] T3563.017

[GRAPHIC] [TIFF OMITTED] T3563.018

[GRAPHIC] [TIFF OMITTED] T3563.019

[GRAPHIC] [TIFF OMITTED] T3563.020

[GRAPHIC] [TIFF OMITTED] T3563.021

[GRAPHIC] [TIFF OMITTED] T3563.022

[GRAPHIC] [TIFF OMITTED] T3563.023

[GRAPHIC] [TIFF OMITTED] T3563.024

[GRAPHIC] [TIFF OMITTED] T3563.025

[GRAPHIC] [TIFF OMITTED] T3563.026

[GRAPHIC] [TIFF OMITTED] T3563.027

[GRAPHIC] [TIFF OMITTED] T3563.028

[GRAPHIC] [TIFF OMITTED] T3563.029

[GRAPHIC] [TIFF OMITTED] T3563.030

[GRAPHIC] [TIFF OMITTED] T3563.031

[GRAPHIC] [TIFF OMITTED] T3563.032

[GRAPHIC] [TIFF OMITTED] T3563.033

[GRAPHIC] [TIFF OMITTED] T3563.034

[GRAPHIC] [TIFF OMITTED] T3563.035

[GRAPHIC] [TIFF OMITTED] T3563.036

[GRAPHIC] [TIFF OMITTED] T3563.037

[GRAPHIC] [TIFF OMITTED] T3563.038

[GRAPHIC] [TIFF OMITTED] T3563.039

[GRAPHIC] [TIFF OMITTED] T3563.040

[GRAPHIC] [TIFF OMITTED] T3563.041

[GRAPHIC] [TIFF OMITTED] T3563.042

[GRAPHIC] [TIFF OMITTED] T3563.043

[GRAPHIC] [TIFF OMITTED] T3563.044

[GRAPHIC] [TIFF OMITTED] T3563.045

[GRAPHIC] [TIFF OMITTED] T3563.046

[GRAPHIC] [TIFF OMITTED] T3563.047

[GRAPHIC] [TIFF OMITTED] T3563.048

[GRAPHIC] [TIFF OMITTED] T3563.049

[GRAPHIC] [TIFF OMITTED] T3563.050

[GRAPHIC] [TIFF OMITTED] T3563.051

[GRAPHIC] [TIFF OMITTED] T3563.052

[GRAPHIC] [TIFF OMITTED] T3563.053

[GRAPHIC] [TIFF OMITTED] T3563.054

[GRAPHIC] [TIFF OMITTED] T3563.055

[GRAPHIC] [TIFF OMITTED] T3563.056

[GRAPHIC] [TIFF OMITTED] T3563.057

[GRAPHIC] [TIFF OMITTED] T3563.058

[GRAPHIC] [TIFF OMITTED] T3563.059

[GRAPHIC] [TIFF OMITTED] T3563.060

[GRAPHIC] [TIFF OMITTED] T3563.061

[GRAPHIC] [TIFF OMITTED] T3563.062

[GRAPHIC] [TIFF OMITTED] T3563.063

[GRAPHIC] [TIFF OMITTED] T3563.064

[GRAPHIC] [TIFF OMITTED] T3563.065

[GRAPHIC] [TIFF OMITTED] T3563.066

[GRAPHIC] [TIFF OMITTED] T3563.067

[GRAPHIC] [TIFF OMITTED] T3563.068

[GRAPHIC] [TIFF OMITTED] T3563.069

[GRAPHIC] [TIFF OMITTED] T3563.070

[GRAPHIC] [TIFF OMITTED] T3563.071

[GRAPHIC] [TIFF OMITTED] T3563.072

[GRAPHIC] [TIFF OMITTED] T3563.073

[GRAPHIC] [TIFF OMITTED] T3563.074

[GRAPHIC] [TIFF OMITTED] T3563.075

[GRAPHIC] [TIFF OMITTED] T3563.076

[GRAPHIC] [TIFF OMITTED] T3563.077

[GRAPHIC] [TIFF OMITTED] T3563.078

[GRAPHIC] [TIFF OMITTED] T3563.079

[GRAPHIC] [TIFF OMITTED] T3563.080

[GRAPHIC] [TIFF OMITTED] T3563.081

[GRAPHIC] [TIFF OMITTED] T3563.082

[GRAPHIC] [TIFF OMITTED] T3563.083

[GRAPHIC] [TIFF OMITTED] T3563.084

[GRAPHIC] [TIFF OMITTED] T3563.085

[GRAPHIC] [TIFF OMITTED] T3563.086

[GRAPHIC] [TIFF OMITTED] T3563.087

[GRAPHIC] [TIFF OMITTED] T3563.088

[GRAPHIC] [TIFF OMITTED] T3563.089

[GRAPHIC] [TIFF OMITTED] T3563.090

[GRAPHIC] [TIFF OMITTED] T3563.091

[GRAPHIC] [TIFF OMITTED] T3563.092

[GRAPHIC] [TIFF OMITTED] T3563.093

[GRAPHIC] [TIFF OMITTED] T3563.094

[GRAPHIC] [TIFF OMITTED] T3563.095

[GRAPHIC] [TIFF OMITTED] T3563.096

[GRAPHIC] [TIFF OMITTED] T3563.097

[GRAPHIC] [TIFF OMITTED] T3563.098

[GRAPHIC] [TIFF OMITTED] T3563.099

[GRAPHIC] [TIFF OMITTED] T3563.100

[GRAPHIC] [TIFF OMITTED] T3563.101

[GRAPHIC] [TIFF OMITTED] T3563.102

[GRAPHIC] [TIFF OMITTED] T3563.103

[GRAPHIC] [TIFF OMITTED] T3563.104

[GRAPHIC] [TIFF OMITTED] T3563.105

[GRAPHIC] [TIFF OMITTED] T3563.106

[GRAPHIC] [TIFF OMITTED] T3563.107

[GRAPHIC] [TIFF OMITTED] T3563.108

[GRAPHIC] [TIFF OMITTED] T3563.109

[GRAPHIC] [TIFF OMITTED] T3563.110

[GRAPHIC] [TIFF OMITTED] T3563.111

[GRAPHIC] [TIFF OMITTED] T3563.112

[GRAPHIC] [TIFF OMITTED] T3563.113

[GRAPHIC] [TIFF OMITTED] T3563.114

[GRAPHIC] [TIFF OMITTED] T3563.115

[GRAPHIC] [TIFF OMITTED] T3563.116

[GRAPHIC] [TIFF OMITTED] T3563.117

[GRAPHIC] [TIFF OMITTED] T3563.118

[GRAPHIC] [TIFF OMITTED] T3563.119

[GRAPHIC] [TIFF OMITTED] T3563.120

[GRAPHIC] [TIFF OMITTED] T3563.121

[GRAPHIC] [TIFF OMITTED] T3563.122

[GRAPHIC] [TIFF OMITTED] T3563.123

[GRAPHIC] [TIFF OMITTED] T3563.124

[GRAPHIC] [TIFF OMITTED] T3563.125

[GRAPHIC] [TIFF OMITTED] T3563.126

[GRAPHIC] [TIFF OMITTED] T3563.127

[GRAPHIC] [TIFF OMITTED] T3563.128

[GRAPHIC] [TIFF OMITTED] T3563.129

[GRAPHIC] [TIFF OMITTED] T3563.130

[GRAPHIC] [TIFF OMITTED] T3563.131

[GRAPHIC] [TIFF OMITTED] T3563.132

[GRAPHIC] [TIFF OMITTED] T3563.133

[GRAPHIC] [TIFF OMITTED] T3563.134

[GRAPHIC] [TIFF OMITTED] T3563.135

[GRAPHIC] [TIFF OMITTED] T3563.136

[GRAPHIC] [TIFF OMITTED] T3563.137

[GRAPHIC] [TIFF OMITTED] T3563.138

[GRAPHIC] [TIFF OMITTED] T3563.139

[GRAPHIC] [TIFF OMITTED] T3563.140

[GRAPHIC] [TIFF OMITTED] T3563.141

[GRAPHIC] [TIFF OMITTED] T3563.142

[GRAPHIC] [TIFF OMITTED] T3563.143

[GRAPHIC] [TIFF OMITTED] T3563.144

[GRAPHIC] [TIFF OMITTED] T3563.145

[GRAPHIC] [TIFF OMITTED] T3563.146

[GRAPHIC] [TIFF OMITTED] T3563.147

[GRAPHIC] [TIFF OMITTED] T3563.148

[GRAPHIC] [TIFF OMITTED] T3563.149

[GRAPHIC] [TIFF OMITTED] T3563.150

[GRAPHIC] [TIFF OMITTED] T3563.151

[GRAPHIC] [TIFF OMITTED] T3563.152

[GRAPHIC] [TIFF OMITTED] T3563.153

[GRAPHIC] [TIFF OMITTED] T3563.154

[GRAPHIC] [TIFF OMITTED] T3563.155

[GRAPHIC] [TIFF OMITTED] T3563.156

[GRAPHIC] [TIFF OMITTED] T3563.157

[GRAPHIC] [TIFF OMITTED] T3563.158

[GRAPHIC] [TIFF OMITTED] T3563.159

[GRAPHIC] [TIFF OMITTED] T3563.160

[GRAPHIC] [TIFF OMITTED] T3563.161

[GRAPHIC] [TIFF OMITTED] T3563.162

[GRAPHIC] [TIFF OMITTED] T3563.163

[GRAPHIC] [TIFF OMITTED] T3563.164

[GRAPHIC] [TIFF OMITTED] T3563.165

[GRAPHIC] [TIFF OMITTED] T3563.166

[GRAPHIC] [TIFF OMITTED] T3563.167

[GRAPHIC] [TIFF OMITTED] T3563.168

[GRAPHIC] [TIFF OMITTED] T3563.169

[GRAPHIC] [TIFF OMITTED] T3563.170

                                 <all>

</pre></body></html>
